<html>
<title> - CONFRONTING VIOLENT WHITE SUPREMACY (PART II): ADEQUACY OF THE FEDERAL RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  CONFRONTING VIOLENT WHITE SUPREMACY
                               (PART II):
                    ADEQUACY OF THE FEDERAL RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

                           Serial No. 116-32

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-828 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d7d624d6e787e796568617d236e626023">[email&#160;protected]</a>                                   
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                    Candyce Phoenix, Staff Director
                      Valerie Shen, Chief Counsel
                         Kristine Lam, Counsel
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 
                                 
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amash, Michigan
Robin Kelly, Illinois                Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol D. Miller, West Virginia
                         
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 4, 2019.....................................     1

                               Witnesses

Mr. Michael McGarrity, Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigation
Oral Statement...................................................     8
Mr. Calvin Shivers, Deputy Assistant Director, Criminal 
  Investigative Division, Federal Bureau of Investigation
Oral Statement...................................................    10
Ms. Elizabeth Neumann, Assistant Secretary, Threat Prevention and 
  Security Policy, U.S. Department of Homeland Security
Oral Statement...................................................    11
Mr. Tony McAleer, Co-Founder, Life After Hate
Oral Statement...................................................    43
Ms. Lecia Brooks, Outreach Director, Southern Poverty Law Center
Oral Statement...................................................    44
Ms. Brette Steele, Director of Prevention and National Security, 
  McCain Institute for International Leadership, on behalf of 
  Arizona State University
Oral Statement...................................................    46
Mr. Todd Bensman, Former Manager, Couterterrorism Unit, 
  Intelligence and Counterterrorism Division, on behalf of Texas 
  Department of Public Safety
Oral Statement...................................................    47

Written statements are available on the U.S. House of 
  Representatives Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * Detailed description of various cases Mr. Bensman Alluded to; 
  submitted by Rep. Roy.

  * Report, "Hate at School;" submitted by Rep. Pressley.

 
                  CONFRONTING VIOLENT WHITE SUPREMACY
                              (PART II):
                    ADEQUACY OF THE FEDERAL RESPONSE

                              ----------                              


                         Tuesday, June 4, 2019

                   House of Representatives
  Subcommittee on Civil Rights and Civil Liberties,
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Clay, Wasserman 
Schultz, Kelly, Ocasio-Cortez, Pressley, Norton, Roy, Amash, 
Hice, Miller, and Jordan (ex officio).
    Also present: Representatives Tlaib and Malinowski.
    Mr. Raskin. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. We are convening the 
second in a series of hearings on confronting white supremacy, 
where we will focus on the adequacy of the Federal response.
    And I'm going to recognize myself now for five minutes to 
make an opening statement.
    I want to welcome all of the members, witnesses, and many 
guests in the audience, to our second hearing on the deadly 
serious topic of the resurgence of violent white supremacy in 
America.
    Last month we held a hearing to help us understand the 
scope of the problem, and we heard from a number of witnesses 
about the consequences of the government not acting to meet the 
threat, including from Susan Bro, the mother of Heather Heyer, 
who was the young woman killed by white supremacists in 
Charlottesville two years ago.
    We heard also from former FBI and Department of Homeland 
Security officials on what the agencies are doing today and not 
doing and should be doing be in response.
    One message came through loud and clear at that hearing: 
White supremacists today constitute the most significant threat 
of domestic terror in the United States, but the Federal 
Government lacks a comprehensive and cohesive strategy for 
addressing the problem.
    Last month's hearing left me with three primary concerns. 
First, the FBI's data collection and reporting system at best 
drastically underreports hate violence in the U.S. and at worst 
deliberately obscures the scope of the threat.
    Second, the FBI's allocation of antiterrorism resources is 
skewed to international terrorism, despite data showing 
domestic terror to be the greater threat today.
    And, third, the Department of Homeland Security appears to 
have no overall strategic plan for how to counter and prevent 
white supremacist violence.
    It's my sincere hope that our friends at the FBI and 
Homeland Security who are here today are prepared to adequately 
address all of these concerns today.
    The FBI's data reporting on hate-motivated violence, both 
in the Criminal Investigative Division and the Counterterrorism 
Division is flawed. Every witness before the subcommittee, 
whether invited by the majority or the minority, agreed on one 
thing, the FBI's hate crimes statistics are inaccurate and do 
not reflect the reality of hate-motivated violence in our 
country.
    The[PC2] numbers that are now familiar to us all, from 2013 
to 2017, the FBI reported on average 7,500 hate crimes 
annually. During that same time period, the Bureau of Justice 
Statistics National Crime Victimization Survey estimated on 
average 200,000 hate crimes annually, which means the FBI is 
reporting one hate crime for more than 20 hate crimes that are 
reported in the National Crime Victimization Survey.
    There are data leaks at almost every stage of the hate 
crimes reporting process, from the hesitation of victims to 
report hate crimes to the police to the failure of local and 
state police to report hate crimes to the FBI to the FBI not 
reporting hate crimes that they are aware of and filling in for 
gaps in the record.
    What's more, the FBI's data excludes incidents that any 
reasonable person would agree should have been included.
    Perhaps the most prominent example was the murder of 
Heather Heyer herself in Charlottesville in 2017. Why was her 
murder not reported as a hate crime? The best that I can 
understand, this baffling omission reflects a problem first at 
the local level, as local police did not report it as a hate 
crime, but it also portrays a systemic failing by the FBI, 
which apparently made little or no effort at all to audit its 
own statistics to independently verify the accuracy of the data 
being submitted from around the country.
    So that is inexplicable and unacceptable, and I know we can 
do better, and I hope we can hear from some of our witnesses 
about how we can make improvements.
    Mr. Shivers, I hope you're prepared today to lay out a 
detailed plan for how CID can improve the hate crime collection 
and reporting data.
    An entirely different issue appears to be playing in the 
Counterterrorism Division. While CID lacks the information 
necessary to understand the scope of hate crimes, the CID has 
detailed data on domestic terror but seems determined to 
obscure the scope of white supremacist violence.
    For at least a decade, the FBI employed the relatively 
straightforward counterterrorism term ``white supremacist 
extremists,'' WSE, which is defined as groups or individuals 
who facilitate or engage in acts of violence directed at the 
Federal Government, ethnic majorities or Jewish persons in 
support of their belief that Caucasians are intellectually and 
morally superior to other races.
    This official category from the FBI and Department of 
Homeland Security's joint lexicon was accompanied by at least 
nine other specific categories, including anarchistic 
extremists, animal rights extremists, antiabortion extremists, 
black supremacist extremists, environmental rights extremists, 
homegrown violent extremists, militia extremists, sovereign 
citizen extremists, and racist skinhead extremists.
    But now the FBI has collapsed these prior 10 specific 
categories into four combined categories. It now uses, one, 
racially motivated violent extremism, which we have been told 
is an umbrella term that combines the prior subcategories for 
white and black racially motivated extremism; two, 
antigovernment/antiauthority extremism; three, animal rights/
environmental extremism; and, four, abortion extremism.
    What was the purpose of these changes? At what level of 
detail is the FBI still tracking extremist activity?
    What proportion of racially motivated violent extremism is 
actually perpetrated by white supremacists?
    Merging white supremacist extremists, who were responsible 
for 39 murders in 2018, with black supremacist extremists, who 
are responsible for zero extremist murders in 2018, into a 
single amalgamated category called ``racially motivated violent 
extremism'' I think obscures the real threat. But I would love 
to hear our witnesses opine on that.
    Similarly, the transformation of the descriptive 
antiabortion extremists category, which was in place for a 
decade, into the misleading new category of abortion extremism, 
is, it appears to me, a ham-fisted effort to disguise the 
nature of the real threat to women's healthcare clinics and 
doctors and nurses and staff who work there. I know of no 
women's reproductive health workers who are pro-choice 
activists who are blowing up clinics or otherwise committing 
violence.
    We cannot play word games with domestic terror, nor can we 
afford to let hate crimes go drastically unreported. The FBI 
must collect and report accurate data on white supremacist 
violence and effectively measure the real magnitude of the 
threat.
    The government cannot protect vulnerable communities 
without understanding and defining the problem in accurate 
detail.
    Despite the obvious problems with the data, this much is 
clear: White supremacist terror is on the rise, and far right 
and white supremacist domestic terror is a far more lethal 
threat to Americans in the United States today than is 
international Islamic terror. But the FBI's resource 
allocations don't reflect this reality.
    According to the Anti-Defamation League, from 2009 to 2018, 
far-right extremism, which the FBI classifies as a form of 
domestic terrorism, was responsible for 73 percent of extremist 
murders. Islamic extremism, which the FBI usually classifies as 
a form of international terrorism, was responsible for 23 
percent of the fatalities during that period.
    However, the FBI has testified the Bureau allocates its 
resources almost exactly backward from what the problem would 
suggest, devoting 80 percent of field agents to stopping 
international terrorism, including Islamic extremism, and only 
20 percent to stopping domestic terrorism, including far right 
and white supremacist extremism.
    This allocation of resources, or misallocation of 
resources, has real-life consequences. As George Selim 
testified at our last hearing, the University of Maryland START 
Center found that from September 11, 2001, through 2017, 
approximately 71 percent of Islamist-inspired extremists in the 
U.S. were interdicted; they were stopped in the planning phase 
of terror activity. But with far-right extremists, the inverse 
is the case, and over 71 percent managed to successfully commit 
violent acts they were planning.
    How many far-right extremists attacks could have been 
prevented if we had taken that threat as seriously as we had 
taken the threat of Islamist fanatical extremism?
    According to the Anti-Defamation League, of the 50 domestic 
extremist murders committed in America last year, every 
perpetrator--every perpetrator--had ties to right-wing 
extremists, and 78 percent of the murders, or 39 of them, were 
committed by white supremacists.
    Meanwhile, there were zero killings in 2018 related to 
left-wing extremism, a category which includes crimes committed 
by anarchists and black nationalists.
    How many lives can we save if we strengthen and focus our 
response on white supremacist violence?
    Mr. McGarrity, I hope you are prepared to account for CTD's 
statistical reporting and resource allocations.
    The FBI is not the only piece of the puzzle. We also need 
to hear from the Department of Homeland Security to answer a 
fundamental question: Do we have an overall strategic plan to 
counter and prevent the threat of white supremacist violence? I 
fear the answer is no, but I'm very eager to hear from Ms. 
Neumann.
    News reports indicate that this administration is actually 
dismantling DHS' threat prevention framework for domestic 
terror without a clear path forward to replace the existing 
framework.
    George Selim, who testified at our last hearing, was the 
Homeland Security Director of Countering Violent Extremism Task 
Force, and he testified that when he was at the Office of 
Community Partnerships, he oversaw the Countering Violent 
Extremism Task Force. They had $10 million in grant funding to 
give away. They had 16 full-time employees and 25 contractors 
and a total budget of $21 million to try to do proactive work 
to counter the spread of terror.
    Now, after the office has been renamed and reorganized to 
the Office of Targeted Violence and Terrorism Prevention, there 
are only eight staff and a budget of $2.6 million. So the staff 
has been cut in half, and they've lost 80 to 90 percent of 
their funding.
    So this development appears to have been aimed--though it's 
not clear exactly why it happened, and I hope you can shed some 
light on that for us, Ms. Neumann.
    And in testimony prepared for today's hearing, Homeland 
Security appears to lay out a plan for the path forward, but I 
think Ms. Neumann would agree that there's still more questions 
than answers at this point. What are the office's precise 
functions? Who's in charge? How many personnel will be assigned 
to prevent white supremacy violence? What is the budget? There 
is no clear answer.
    And it's very late in the game for us. The massacre at the 
Mother Emanuel AME Church in Charleston was in 2015, Heather 
Heyer died in 2017, where there were another 30 or 35 crimes 
committed during those horrific events in Charlottesville. The 
Tree of Life massacre took place last year.
    Why are we now just getting around to establishing an 
office to address the threat? Why are we just now trying to 
articulate a nationwide strategy to prevent this threat to 
communities across the land?
    I know that Ms. Neumann recognizes the enormity of the 
problem and the importance of getting it right, and I look 
forward to hearing her thoughts about a detailed strategic plan 
moving forward.
    President Trump has called white supremacists a small group 
of people that have very, very serious problems. But real 
statistics from third-party groups and his own law enforcement 
agencies demonstrate that it's actually a rather large group of 
people, in the thousands, and they are causing very, very 
serious problems, not just for themselves but for everybody 
else, and certainly for everybody who has died at the hands of 
white supremacists across the country.
    In Congress, we must ensure that the government step up 
immediately, speak clearly about the nature of this threat, and 
rapidly move to increase and improve law enforcement and public 
education efforts to protect our communities against the lethal 
perils of white supremacist violence.
    And, with that, I'm delighted to turn it over to the 
distinguished ranking member of the committee, Mr. Roy.
    Mr. Roy. Thank you, Chairman.
    And I thank the work of the chairman and his staff on 
pulling this hearing together, and I thank the witnesses for 
taking the time for being up here to join us to testify and for 
you all's service to our Nation. Thank you.
    I am gratified that we are working on a bipartisan basis to 
conduct meaningful oversight of the work that FBI and DHS are 
doing to fight domestic terrorism and hate crimes.
    I believe and expect that we will hear testimony today that 
prevention of targeted violence should be agnostic to ideology. 
I could not agree more. As a former Federal prosecutor, I think 
it is imperative that be our approach. I do reiterate my point 
from the first hearing that we be mindful of our language and 
avoid focus on identity politics, which furthers the division 
that causes many of the hateful acts by all bad actors.
    But if we're going to have a hearing related to domestic 
terrorism, I would like to discuss the different types of 
domestic terror threats that the country faces, like sovereign 
citizen terrorists in Texas. I want to talk about environmental 
terrorism that may have a presence in other areas of the 
country. Because the domestic terrorist threat we see in 
Maryland may not be the same threats that we see in Texas, 
which is why I've asked Mr. Bensman to be here in the second 
panel to give us that state and local perspective about what we 
saw on the ground when he worked in law enforcement and 
counterterrorism in Texas.
    The fact is that a crime is a crime, and they should be 
prosecuted as such. But to have meaningful discussion with FBI 
and DHS today, we should be focusing on you all's holistic 
effort to stop all forms of terrorism and hateful violence.
    I also want to reiterate the importance of perspective. 
Last hearing I discussed the statistic from the Anti-Defamation 
League. We discussed their classification of 18 of the 34 
extremist murders in 2017 being tied to white supremacy, 
obviously all horrific and crimes we would like to stop. Of 
course, perspective here is important, because there were 
17,000 murders in the United States in 2017.
    We should also be cognizant of the reality that we 
designate foreign terrorist organization as exactly that. But 
we do not have a similar designation domestically. There are 
reasons for that, things we should continue to discuss and 
debate. There are Fourth Amendment concerns and other issues 
involved with how we focus and target American citizens outside 
traditional criminal laws and networks.
    With those figures in mind and that background, I hope 
today we can promote meaningful law enforcement meant to root 
out crime regardless of how it's classified and be mindful of 
how we allocate our resources. It's a difficult situation that 
we all have to do as we try to stop criminal activity 
nationwide, regardless of where it comes from or why it's 
perpetrated.
    My hope is that we can lay down our attempt to score 
political points and call out racists for being abhorrent and 
figure out how to best support our Federal law enforcement 
agencies because as we convene this hearing, both DHS and FBI 
are hard at work out in the field protecting this country from 
terrorism and hate crimes. As we speak, right now, it's going 
on.
    For example, earlier this year, the FBI's Joint Terrorism 
Task Force in California worked diligently to prevent a terror 
attack planned in Long Beach. A JTTF in Ohio thwarted a 
couple's plan to commit a mass murder at a bar in Toledo.
    I've got a bunch of examples of FBI cases in Texas. A 
former Texas State University student whom FBI agents claimed 
was plotting mass violence who had embraced white supremacy.
    JTTF agents arrested a DACA recipient, Sergio ``Mapache'' 
Salazar, for alleged threats of bomb-making for the purpose of 
murdering ICE agents.
    A Texas-based individual involved in an online militia 
group burned a Victoria, Texas, mosque to send a message to the 
Muslim community.
    Two members of a sovereign citizen religious sect living in 
central Texas compound robbed a Round Rock, Texas, jewelry 
store.
    Roger Talbot was arrested in March 2014 following an eight-
month undercover investigation of his so-called American 
Insurgent Movement by the FBI Houston Domestic Terrorism Joint 
Terrorism Task Force. He was threatening to blow up government 
buildings.
    Another individual had 500,000 rounds of ammo and was 
engaged in white supremacist activity in East Texas. That was 
also thwarted.
    And I can go through the list. My point is, that activity 
is going on. It's important that we recognize how much law 
enforcement is working together at the Federal, state, and 
local level to thwart these kinds of activities, regardless of 
their ideology, regardless of where they come from, regardless 
of the race, regardless of a focus on whether it involved 
international terrorism. And I think it's critical that we 
recognize and thank you all and those that are working in our 
law enforcement communities from Federal, state, and local for 
their service in doing so.
    I look forward to hearing from the witnesses, from the FBI 
and DHS, about the efforts spanning the previous administration 
and this one to combat crime, including domestic-type 
terrorism, as I understand there have been significant steps 
taken to improve it under this administration and learn and 
evolve what we've been doing, and in fact many steps that had 
not been taken necessarily by the previous administration, not 
necessarily to a fault but because we learn and develop.
    I also look forward to hearing how the Federal Government 
can partner with state and local law enforcement agencies 
further to equip them with the right tools to root out domestic 
terrorism, as that is the best approach to law enforcement, as 
I can attest, as someone who worked as a former Federal 
prosecutor within the Department of Justice as part of the 
Project Safe Neighbors program in partnership with state and 
locals to prosecute gang, drug, and gun violence.
    With that, I thank the chairman and yield back such as I 
have any time to yield.
    Mr. Raskin. Mr. Roy, thank you for that opening statement. 
Very much appreciated.
    And let's see. The first thing we need to do is to allow 
Mr. Malinowski and Ms. Tlaib to participate in today's hearing, 
to waive on for the purposes of it. We are delighted to have 
them.
    And, without objection, I will grant them that status.
    And now I want to welcome our distinguished witnesses 
today, starting with Michael McGarrity, who is the Assistant 
Director of the Counterterrorism Division of the FBI, the 
Federal Bureau of Investigation.
    Welcome, Mr. McGarrity. We're delighted to have you.
    Calvin Shivers--Mr. Shivers, I've been pronouncing your 
name that way. I want to make sure that's correct.
    Mr. Shivers. That's correct.
    Mr. Raskin. Very good. Okay. That was a good guess.
    You are the Deputy Assistant Director of the Criminal 
Investigative Division, the CID, of the FBI, the Federal Bureau 
of Investigation.
    And Ms. Neumann, Elizabeth Neumann, is the Assistant 
Secretary for Threat Prevention and Security Policy at the U.S. 
Department of Homeland Security.
    So we've got the key people in the country with us today.
    Mr. McGarrity, you are recognized for five minutes.
    Mr. McGarrity. Thank you.
    Mr. Raskin. Forgive me. I do need to swear you in.
    If all of you would please rise and raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show the witnesses all answered in 
affirmative.
    Thank you very much. Please be seated.
    The microphones are sensitive up here, so please speak 
directly into them so all of us can hear you.
    And, without objection, your written statements will be 
made part of the record.
    And, with that, Mr. McGarrity, now you are recognized for a 
full five minutes to give an oral presentation.

      STATEMENT OF MICHAEL MCGARRITY, ASSISTANT DIRECTOR, 
   COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. McGarrity. Thank you, Chairman.
    Good afternoon, Chairman Raskin, Ranking Member Roy, and 
members of the committee.
    Thank you for the opportunity to appear before you today.
    As the Assistant Director of the FBI's Counterterrorism 
Division, I will be providing an overview of the FBI's efforts 
to counter domestic terrorism by explaining what we do and how 
we do it.
    And I want to emphasize upfront that preventing acts of 
terrorism in the homeland is the FBI's No. 1 priority. This 
includes terrorism from any place and any actor.
    In this fight, the FBI is the lead Federal agency for 
investigating terrorism. The FBI categorizes investigations 
into two main programs: international terrorism and domestic 
terrorism, IT and DT. Combined, these two programs are what 
make up the FBI's top priority.
    International terrorists include members of designated 
foreign terrorist organizations--we call them FTOs--state 
sponsors of terrorism, and homegrown violent extremists, or 
HVEs. Domestic terrorists are individuals who commit violent 
criminal acts in furtherance of ideological goals stemming from 
domestic influences, such as bias, racial bias, and 
antigovernment sentiment.
    Despite the many similarities, the FBI distinguishes 
domestic terrorism extremists from homegrown violent extremists 
in that the latter are global jihad inspired, while domestic 
terrorist inspiration emanates from domestic influence--
influences like racial bias or antiauthority.
    The FBI seeks to disrupt domestic terrorist actors by 
leveraging the full arsenal of investigative techniques. 
However, as this committee knows, no investigation can be 
opened based solely on the First Amendment protected activity. 
For example, the FBI does not investigate rallies or protests, 
unless there is a credible belief that violent criminal 
activity may be occurring.
    The FBI assesses domestic terrorists collectively pose a 
persistent and evolving involving threat of violence and 
economic harm to the United States. In fact, there have been 
more arrests and deaths in the U.S. caused by domestic 
terrorists than international terrorists in recent years.
    Individuals affiliated with racially motivated violent 
extremism are responsible for the most lethal and violent 
activity and are responsible for the majority of lethal attacks 
and fatalities perpetrated by domestic terrorists since 2000.
    Racially motivated violent extremism includes threats 
deriving from bias related to race held by the actor against 
others or a given population group. The current RMV threat, as 
we call it, is decentralized and characterized by lone actors 
radicalized online who target minorities and soft targets using 
easily accessible weapons.
    This assessment is in contrast to the FBI's past 
assessments of similar movements in the 1980's and the early 
2000's when the RMV threat was composed of hierarchy and 
structured groups, nationally organized groups led by 
charismatic ideologues.
    In recent years, lone offenders have committed the most 
lethal domestic extremist violence. These offenders primarily 
use firearms and often act without specific guidance from a 
group. Radicalization of domestic terrorists primarily occurs 
through self-radicalization online, which can sometimes present 
mitigation difficulties. It is a challenge for law enforcement.
    The internet and social media enables individuals to engage 
other domestic terrorists without face-to-face meetings.
    We've seen multiple devastating attacks committed by 
domestic terrorists in recent months, most recently in the 
U.S., these include the shootings at Chabad of Poway synagogue 
in Poway, California, and the Tree of Life synagogue in 
Pittsburgh, Pennsylvania.
    In 2018, domestic violent extremists conducted six lethal 
attacks, killing 17 victims. In 2017, domestic violent 
extremists conducted five lethal attacks, killing eight 
victims.
    Central to our efforts to combat terror attacks is the 
Joint Terrorism Task Force, our JTTF model. We work hand-in-
hand with Federal and local agencies to effectively combat the 
threat.
    In fact, many arrests of FBI domestic terrorism subjects 
are conducted by state and local partners in coordination with 
JTTFs. We have JTTFs throughout all 56 field offices, which 
allow for regular, robust sharing of threat assessments with 
our Federal, state and local partners.
    In fact, approximately 50 percent of our domestic terrorism 
investigations are opened based on information received from 
either the public or from referrals provided by our partners at 
the local, state, and Federal levels.
    In Fiscal Year 2018, FBI JTTFs across the country 
proactively arrested approximately 115 subjects of FBI domestic 
terrorism investigations before they could mobilize to 
violence. So far, in the first half of Fiscal Year 2019, our 
JTTFs have disrupted approximately 66 subjects of FBI domestic 
terrorism investigations by arrest.
    These numbers are more than mere statistics. Undoubtedly, 
they represent American lives saved in communities across the 
United States.
    Despite the successes that result from the hard work of the 
men and women of the FBI and our partners on the JTTFs, 
domestic terrorism continues to pose a persistent threat.
    Our commitment to you and to our fellow citizens is that we 
will continue to confront the threat posed by terrorism. 
Whether the threat emanates from international terrorists or 
here in the homeland in the domestic sphere, we will follow our 
oaths. We will and are determined to protect the United States 
of America from all enemies, foreign and domestic, and to 
uphold the Constitution of the United States.
    Thank you.
    Mr. Raskin. Mr. McGarrity, thank you very much.
    Mr. Shivers for five minutes.

    STATEMENT OF CALVIN SHIVERS, DEPUTY ASSISTANT DIRECTOR, 
      CRIMINAL INVESTIGATIVE DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Shivers. Good afternoon, Chairman Raskin, Ranking 
Member Roy, and members of the subcommittee.
    Thank you for inviting us here today. I appreciate the 
opportunity to discuss how the FBI addresses hate crimes.
    My experience working in the FBI goes back nearly 30 years 
when I started my career as a Special Agent in the FBI's New 
Orleans Division. Throughout my career, I've had an opportunity 
to investigate, lead, and manage a number of important 
investigations and programs within the FBI. I'm both proud and 
honored to lead the branch of the FBI's Criminal Investigative 
Division that oversees hate crime and civil rights programs.
    Hate crimes tear at the fabric of our communities and our 
country, so we must ensure the civil rights of all persons, 
which are guaranteed by the U.S. Constitution, are protected. 
Hate crime laws in the United States are intended to protect 
our citizens against biased crimes, motivated by animus against 
a protected class of persons.
    Current U.S. statutes permit Federal prosecution of hate 
crimes committed on the basis of a person's race, religion, 
disability, ethnic or national origin, sexual orientation, 
gender, or gender identity.
    Over time, the FBI's ability to investigate these crimes 
has expanded as new laws were passed. For example, the Civil 
Rights Act of 1968 permitted Federal prosecution of crimes 
committed with a bias against race, color, religion, or 
national origin.
    In 2009, when the Matthew Shepard and James Byrd, Jr., Hate 
Crimes Prevention Act was passed, Federal hate crime law 
expanded to apply to crimes motivated by a victim's gender, 
perceived gender, sexual orientation, or disability.
    In order for the FBI to initiate a hate crimes 
investigation, there are three key elements we must look for or 
must suspect.
    No. 1, there must be an act of violence, threatened 
violence, or conspiracy to do so.
    No. 2, the perpetrator must have acted willfully or 
intentionally.
    And, No. 3, the perpetrator's actions must have been 
motivated by an actual or perceived statutorily recognized 
bias.
    It is worth noting that hate crimes investigations are 
often, by their very nature, reactive. That being said, we in 
the FBI understand that we must also be proactive in trying to 
prevent hate crimes.
    Because hate crimes and domestic terrorism can intersect, 
the FBI's Counterterrorism Division also addresses hate crimes 
through domestic terrorism investigation. In some instances, we 
work parallel investigations. By analyzing and sharing 
intelligence, we both hope to prevent hate crime incidents. But 
if hate crime does occur, we work diligently to hold those 
responsible accountable for their actions and seek justice for 
victims.
    Hate crimes are not only an attack on victims, but they 
often have a wide-ranging harmful impact on communities. Thus, 
investigating hate crimes is one of the FBI's highest 
priorities.
    Although the FBI is the primary U.S. law enforcement agency 
that conducts civil rights investigations, we understand the 
importance of partnerships with Federal, state, and local law 
enforcement, as well as affected communities. Community 
engagement, outreach, training, and education are critical to 
our success in addressing hate crimes.
    The Uniform Crime Report, or UCR, is a nationwide 
cooperative statistical effort of nearly 18,000 law enforcement 
agencies who voluntarily report data on crimes brought to their 
attention.
    The UCR program is being transitioned from a summary 
reporting system to the National Incident-Based Reporting 
System, or NIBRS.
    NIBRS collects crime data that is more comprehensive than 
the UCR, making it a more effective tool for law enforcement, 
policymakers, and analysts to truly understand crime and make 
informed decisions to address it. We believe NIBRS will capture 
data that helps us better understand the magnitude of the hate 
crime threat.
    The FBI has been and will continue to be the lead law 
enforcement agency addressing hate crime matters.
    We are proud of our work, and we look forward to continuing 
to be the agency that the American public continues to trust to 
serve in this role.
    I look forward to our dialog and your questions.
    Thank you.
    Mr. Raskin. Mr. Shivers, thank you very much for your 
testimony.
    And, Ms. Neumann, you are recognized for five minutes.

  STATEMENT OF ELIZABETH NEUMANN, ASSISTANT SECRETARY, THREAT 
  PREVENTION AND SECURITY POLICY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Neumann. Thank you, Chairman Raskin.
    Ranking Member Roy and members of the subcommittee, I'm 
very grateful that you're holding this important hearing on 
combating white supremacy.
    I want to make it clear at the outset, unequivocally and 
without hesitation, that violent white supremacy is abhorrent.
    I am grateful that we have the opportunity to discuss the 
Department's current capabilities and our plans for advancing 
the prevention mission.
    Please allow me to first, though, convey my deepest 
condolences to the families of the victims of Friday's targeted 
attack in Virginia Beach. Twelve lives were cut short. Four 
more are in the hospital. We have families grieving, and shock 
and grief, again, are rippling through our country.
    Whether it's an attack on a school, a night club, a 
synagogue, a mosque, a church, or a public space in a 
government facility, it really needs to stop. We need to invest 
in prevention to bring that end into view.
    I have been working on prevention since shortly after the 
attacks of September 11, 2001. I served in the Domestic 
Counterterrorism Directorate at the White House and worked on 
the policies and programs we needed to prevent another 
catastrophic attack. We designed measures to address the threat 
from al-Qaida, primarily a complex, coordinated attack with 
planning cycles ranging from months to years and attackers or 
facilitators that entered the U.S. from abroad. These 
prevention efforts were primarily the tools of law enforcement, 
intelligence, and border security.
    The threat morphed multiple times over the past 18 years, 
with one of the most concerning trends being the ability of 
ISIS to recruit and radicalize to violence in isolation via the 
internet and social media.
    And now domestic terrorist movements are borrowing from the 
ISIS handbook, using social media to recruit, radicalize, 
inspire, and mobilize Americans to violence.
    This latest evolution in terrorist threats occurs in 
relative isolation and involves a smaller window between 
radicalization and violent acts, and together these factors 
make it extremely difficult for law enforcement, including my 
partners at the FBI, to detect and thwart potential attacks.
    Our post-9/11 prevention capabilities, as robust as they 
are, were not designed to deal with this type of threat. And 
while we have made progress in developing the tools necessary 
for this new threat, the solutions need to be scaled in order 
for them to be effective.
    For nearly 25 years, the Secret Service's National Threat 
Assessment Center, the NTAC, conducted evidence-based research 
on individuals that carried out acts of targeted violence. The 
NTAC research demonstrated that there are similar themes 
between the perpetrators of workplace violence, domestic 
violence, school-based violence, and terrorism. Likewise, 
research demonstrates remarkable similarities among the 
attackers, regardless of the ideological motivation of the 
attack.
    So why does this matter? Because it allows us to identify 
behaviors and characteristics of individuals prone to violence 
and assist vulnerable individuals before they cross the 
criminal threshold.
    And as Ms. Bro, and all who testified so poignantly during 
the hearing last month noted, some of that assistance is best 
provided outside of the Federal Government.
    What is needed is true--a true whole-of-society approach. 
And, thankfully, a growing number of state and local 
jurisdictions are adopting a multidisciplinary threat 
management prevention strategy.
    For the past several years, DHS has worked with law 
enforcement, academia, mental health professionals, educators, 
and faith leaders to develop prevention strategies. Through the 
CVE grant program, the National Governor's Association is 
developing prevention strategies in Virginia, Colorado, 
Illinois, and Michigan.
    Another grant is allowing the Major City Chiefs Association 
to develop a law enforcement implementation guide for 
prevention.
    And last week I saw firsthand how DHS investments in 
prevention are yielding dividends.
    In Colorado, the combination of grants and a field-deployed 
staff member have led to 24 interventions of individuals 
desiring to conduct acts of violence. Twelve of those were 
motivated by a white supremacist ideology.
    While there are excellent prevention efforts underway, a 
strategic approach to prevention has been lacking. That is why 
Acting Secretary McAleenan created the Office of Targeted 
Violence and Terrorism Prevention in April. The office will 
coordinate and expand the DHS terrorism prevention enterprise 
while also harmonizing our efforts with our Federal partners 
who have important roles in the prevention mission space.
    This summer, we are developing the prevention framework 
that DHS will implement over the coming years. This is that 
comprehensive strategy, Mr. Chairman, that you noted is needed.
    Drawing on lessons learned from the grants and from recent 
research that was funded by the Department from our FFRDC, 
Rand, and continuing stakeholder engagement, we plan to build 
out that framework in partnership with you all and look forward 
to further discussing it with you over the summer.
    But in closing, I want to say at the outset that DHS 
recognizes there is a lot of work to do, and it is unacceptable 
that anyone in the United States be made to feel afraid because 
of their race or religion.
    We look forward to working with you on this critical 
mission, and I look forward to answering your questions.
    Mr. Raskin. Thank you all for your testimony.
    And now we will begin our question portion of the 
proceedings. Each member will be given five minutes to question 
the panel.
    I'll start just by recognizing myself.
    Mr. McGarrity, let me start with you.
    We know that America has worked closely since 9/11 with our 
allies around the world to try to get on top of the problem of 
al-Qaida terrorism, ISIS terrorism.
    What are we doing to coordinate with law enforcement and 
police around the world to deal with the problem of white 
supremacist violence, which exploded, for example, in 
Christchurch in New Zealand?
    You know, is this an international problem, and are we 
dealing with it in an international way?
    Mr. McGarrity. Thank you, Chairman.
    I would say, yes, it's an international problem, and partly 
that's due to the internet, the ability for someone to self-
radicalize or talk to someone, chat with someone, email someone 
halfway around the world, or to see a post, an image, and be 
influenced by that.
    As far as what we, the FBI, are doing, we're doing a lot. 
Just within Thursday and Friday, I met with my senior 
counterterrorism officials and our top five foreign liaison 
partners. We talked specifically about domestic terrorism. We 
talked specifically about social media. So envision the 
counterterrorism heads for those countries at my level, we sat 
together for two days and talked about domestic terrorism. So 
it's very much at the forefront of our dialog.
    Then, as you go down, it's interesting, actually, because 
my counterparts in other parts of the world are just coming on 
to the domestic terrorism program. Not every portfolio of 
domestic terrorism, as we define it here in the U.S., racially 
motivated violent extremism--you can use the term white 
supremacists--would necessarily be included in a foreign 
intelligence service or domestic law enforcement agency, 
Federal law enforcement agency. They're starting to see that 
more and more.
    Every time we have a case that goes overseas, we share that 
information. For example, in New Zealand, during the 
Christchurch attacks, we sent people to New Zealand. I sent a 
team over there, as did our other Five Eyes partners from 
across the world. We did that. I received briefings back. When 
we had the synagogue shooting in San Diego, I made sure at my 
level I'm engaged with my counterparts across.
    We bring in--and that goes all the way down to the working 
level, as far as foreign engagements, both here within the U.S. 
at FBI headquarters and with our foreign partners overseas. We 
have agents and analysts traveling all the time to meet with 
our counterparts to work on cases, to share leads.
    When we do have a lead, just like on the international 
terrorism side, we send that lead to a legal office overseas 
for action.
    We have stopped terrorist threats, domestic terrorism 
threats, overseas, and we do it just like we do on 
international terrorism. I think what you're seeing over the 
last couple of years is what we have seen with the homegrown 
violent extremist threat. With the internet, we are seeing 
individuals self-radicalized online in both the international 
terrorism and domestic terrorism, and they are engaging and 
radicalizing and mobilizing to violence fairly quickly. And 
they don't necessarily have to be part of a group, and they can 
talk to someone halfway around the world to do that.
    Mr. Raskin. That's a very helpful answer. Let me just 
clarify one thing.
    I think a lot of our listeners who are tuning in for the 
first time will be a little puzzled at the formulation ``we've 
stopped domestic terrorism overseas.'' And that goes to the--
the kind of curious nomenclature that has evolved in this 
field.
    Explain what that means. What is domestic terrorism, what 
is international terrorism, and why don't we just call it all 
terrorism? Can you explain that?
    Mr. McGarrity. Well, we do call it terrorism, and within 
that, from international terrorism when there are designated 
foreign terrorist organizations at the----
    Mr. Raskin. Can you just put your mic on, please?
    Mr. McGarrity [continuing]. that the State Department 
designates, that is in a different bucket because there are 
different authorities that come with that that we can use that 
we cannot use on the domestic terrorism side.
    Mr. Raskin. But when you say, you know, we've worked to 
stop domestic terrorism overseas, you're referring there to 
white supremacist activity?
    Mr. McGarrity. I'm referring to threats overseas on 
racially motivated violent extremists who advocate for the 
supremacy of the white race overseas, we've given threat 
information that we have received here in the United States to 
our foreign partners.
    Mr. Raskin. Gotcha, gotcha.
    Mr. Shivers, let me ask you. I think one of the themes 
running through all of the testimony there was that--that we 
may be in a different phase now of trying to counter terrorism 
because of the internet and some of the people who go out and 
shoot up churches, like the Mother Emanuel Church, or 
synagogues like Tree of Life, are kind of lone wolves; they are 
people who get radicalized or indoctrinated online, but they're 
not part of a hierarchical organization necessarily where they 
can be identified as a group.
    What can be done about that, if anything? What are the 
efforts that you're evolving in the FBI to address that threat?
    Mr. Shivers. So I will start to answer the question, but I 
will also go back to Mr. McGarrity.
    One of the things to understand about working hate crimes 
and domestic terrorism is they're not mutually exclusive.
    And so there are times where an incident may occur and the 
FBI is not sure, is it purely a hate crime, or is it an act of 
domestic terrorism? So, when responding, you have 
representatives from the civil rights squad as well as the 
domestic terrorism squad.
    And so our main priority is addressing the investigation. 
And so one of the things that we try to do is to be proactive. 
And what we do is not only collaborate on the investigation but 
ensure that we share intelligence. Because one of the things, 
to your point, it may be a lone actor, but at the same time, 
there may be communications with other individuals or groups 
that we would necessarily need to try to shed a little bit of 
light on.
    And I'll go back to Mr. McGarrity.
    Mr. McGarrity. Sure. We work it just like any other--
whether it's international terrorism or criminal gangs, we work 
our sources. We work our undercover operations. We work other 
collection that we can do through court-authorized wiretaps.
    I think what--Chairman, what you have to understand is, 
we're not playing with the numbers here. We arrest more 
domestic terrorism subjects left of attack in the United States 
than we do in international terrorism. So--and we've done that 
for the last couple of years. So more domestic terrorism 
subjects that we have open investigations on, we are arresting 
left of attack. And that's more than we do on the international 
terrorism.
    Mr. Raskin. You mean before the attack takes place?
    Mr. McGarrity. Yes, yes.
    Mr. Raskin. Okay. So that was not the information that I 
got at the last hearing. So I would love to see that----
    Mr. McGarrity. Can I address that?
    Mr. Raskin. Please.
    Mr. McGarrity. I don't know who--I think I know who you're 
talking to. But if you're talking to an FBI agent who has been 
out 15 years, that's like talking to someone who works--people 
who rob banks before the internet, right? I mean, the threat 
has changed with the internet. These people are self-
radicalizing online and can act and can go get a weapon.
    So that's the difference. We are doing the same thing on 
the domestic terrorism side with our undercovers, both in the 
virtual space--because I'll be honest with you, that's where a 
lot is happening, more than the physical space. We do that. And 
you see them time and time again in the press releases from the 
Department of Justice for those arrests, both on the 
international terrorism side and the domestic terrorism side. 
So we're in the virtual with domestic terrorism, and we're in 
the physical space.
    Mr. Raskin. Thank you. That's useful. My time is up.
    But I'm going to recognize Mr. Hice for five minutes.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Ms. Neumann, in your opening statement, you refer--made 
reference to Rand. And it is my understanding, at the 
administration's request, they did an exhaustive study on 
terrorism prevention and among other things found that 
prevention works but at the same time found that the effort and 
energy that goes into terrorism prevention is minuscule 
compared to that that goes into other law enforcement and 
counterterrorism type programs.
    So can you kind of explain the difference between the two? 
What are we talking about in reference to terrorism prevention 
versus counterterrorism?
    Ms. Neumann. Thank you for the question, Mr. Hice.
    Absolutely. The Rand study, we asked them specifically to 
assess the amount that is being spent on prevention. And in 
particular, we asked to compare that to our international 
counterparts, those who are similarly equipped to be able to do 
things through law enforcement and other counterterrorism 
means. And the results did indicate that we are spending less 
than many of our European partners. That could be because the 
challenges that they have faced with ISIS recently are much 
more significant than we have faced, not that our challenges 
aren't still great. But the numbers are--kind of speak for 
themselves.
    They found that FBI and their law enforcement activities, 
their assessments, their investigations, about 165 million a 
year. And to give you a snapshot, it costs about 1 million 
for--from assessment to post release supervision for each 
individual with a 15-year sentence.
    On the Federal prevention side, we're spending about 12 to 
13 million annually. That's an estimate. And their 
recommendation based on our--based on the threat that we're 
facing--was 20 to 50 million, is what we should be spending. 
And according to the population that we have here in the United 
States, maybe something like 150 to 450 million.
    So that gives us a bit of range as we're starting to build 
out a prevention framework and put together budgets and have 
conversations with Congress, gives us a sense of what we should 
be doing.
    I think the other thing I would mention is the practical 
side of this. The cost of cleaning up a terrorist attack can 
range anywhere from tens of millions to hundreds of millions of 
dollars. I believe the Boston Marathon bombing was in the $330 
million range. That doesn't even account for the lives that are 
lost or permanently changed and all of the grief and emotional 
toil that the families go through.
    For the cost of a field representative, which when you add 
benefits and travel costs, let's say $200,000, and a small 
grant that might be a quarter of a million to a million dollars 
to a state or to a police department or to--whatever--however 
the state decides to structure their prevention efforts, that 
might save us--you know, so you're talking just a little under 
a million dollars.
    In the state of Colorado, we had 24 interventions in less 
than a two-year period. If just one of those individuals had 
been successful in committing an attack, we would be cleaning 
things up for tens of millions, maybe hundreds of millions of 
dollars. So the return on investment is definitely documented 
in the Rand study. It was very helpful.
    Mr. Hice. So would you consider that, then, the biggest 
takeaway in that study?
    Ms. Neumann. There are a number of things. It's a 300-page 
report. They identified best practices, areas and lines of 
effort that the Federal Government should do. It told us very 
clearly that the concept of terrorism prevention is not our 
state and local partners' top priority. Their top priority is--
--
    Mr. Hice. We only got about just listen--left[PC12]. But 
should it be a top priority? I mean, obviously, it works. It 
sounds like a pretty----
    Ms. Neumann. I think by opening the aperture to address 
targeted violence in terrorism prevention, it helps our state 
and local partners with what they care about, which is all 
violence, as opposed to a particularly type of ideology.
    Mr. Hice. Should terrorism prevention be part of the 
counterterrorism strategy?
    Ms. Neumann. It is. It is in the national strategy, and 
we're actually working on the DHS counterterrorism strategy. 
That's what this prevention framework will be nested in, and we 
hope to release it in the fall.
    Mr. Hice. Okay. Thank you very much.
    Appreciate it, Mr. Chair.
    Mr. Raskin. The chairman yields back. Thank you, Mr. Hice.
    And I now recognize Mrs. Maloney for five minutes.
    Mrs. Maloney. And I thank the chairman and ranking member 
for calling this important hearing and all of the participants.
    And I would like to ask Mr. Shivers about the FBI hate 
crime statistics.
    All the reports I've seen indicate that the FBI's official 
uniform crime reporting hate crime statistics are deeply, 
deeply flawed and severely underreported, the actual numbers of 
hate crimes and incidents in our country.
    For example, in 2017, the FBI reported over 7,000 hate 
crime incidents. But the Bureau of Justice Statistics Crime 
Victimization Survey estimates 200,000 hate crimes each year on 
average.
    And, Mr. Shivers, is that consistent with your 
understanding?
    Mr. Shivers. No, ma'am. Couple of things I would like to 
point out.
    Mrs. Maloney. Okay.
    Mr. Shivers. So the reporting to the UCR with state and 
local law enforcement agencies is voluntarily. And so one of 
the things that the FBI has done over the last couple of 
years----
    Mrs. Maloney. Excuse me. Why is it voluntary? Hate crimes 
should be reported. They should be required. Why is it 
voluntary?
    Mr. Shivers. And so reporting to the UCR in general is 
voluntarily. And so one of the things that we have done is we 
have tried to take a proactive stance in going out to train 
state and local law enforcement agencies relative to hate 
crimes so they have an opportunity to recognize hate crimes.
    Mrs. Maloney. But my question was, the FBI's statistics was 
7,000 and the Bureau of Justice statistics was 200,000.
    Mr. Shivers. Yes, ma'am.
    Mrs. Maloney. So is that true? That's the point that I want 
to make.
    Mr. Shivers. So I am not aware of where the 200,000 came 
from. But the only reason----
    Mrs. Maloney. Can you check that? Because I know about your 
training efforts. And it seems like there's a problem with 
accuracy. And at our last hearing, it was pointed out, when 
Susan Bro, the mother of Heather Heyer, who was killed in 
Charlottesville, argued passionately about the need to improve 
the accuracy of hate crime reporting, and she said, and I 
quote: A doctor cannot diagnose a patient without knowing the 
full set of symptoms. I don't see how we are expecting you as 
Congress Members to know how to prescribe allocations of 
personnel and money without knowing the full set of symptoms, 
end quote.
    And so, Mr. Shivers, would you agree with Ms. Bro, about 
that statement?
    Mr. Shivers. Ma'am, the reason I brought up the UCR was to 
talk about the transition to NIBRS.
    And so one of the reasons that NIBRS is coming online is to 
provide more accurate reporting.
    Mrs. Maloney. But I have a specific question.
    Heather Heyer's death, I am told, and the other assaults--
the horrific assaults that were committed in--by white 
supremacists in Charlottesville, did not even appear in the 
2017 FBI hate crimes statistics report.
    Is that true?
    Mr. Shivers. Yes, ma'am. And the reason is----
    Mrs. Maloney. Well, can you explain how in the world did 
that happen? This was a graphic, terrible, terrible assault and 
death all over the papers, everywhere. Everybody knew about it.
    How did it not end up in your statistics?
    If that didn't end up in your statistics, it points out 
something is really being underreported in our country, 
wouldn't you say?
    Mr. Shivers. So what I was trying to explain is the 
transition from UCR to NIBRS, UCR used what's called the 
summary reporting system. And what that means is only the most 
egregious offense is reported in the UCR.
    So the example would be if you had an armed robbery and a 
homicide, it's only the homicide that is reported in the UCR. 
So, with NIBRS, you will have more granularity, where you're 
able to now see all of the associated crimes that have been 
committed. So that's one of the reasons that we are 
transitioning from the UCR to NIBRS.
    Mrs. Maloney. Well, I think you had better transition 
pretty fast because your statistics are not accurate.
    And does the FBI have an overall strategic plan of how to 
improve your--the reporting of your hate crimes?
    I find the fact that different reporting systems are so 
different, the fact that probably the most horrific hate crime 
in the whole country did not even make it into the--into your 
reporting system is showing that it's terribly flawed.
    And then I read also that Alabama reported there were no--
only one hate crime in the whole year in Alabama. People are 
alleging that that was very underreported.
    Any comments on that?
    Mr. Shivers. Well, again, we will have more accurate 
roaring when we can move from the summary reporting system, 
which has the hierarchy rule----
    Mrs. Maloney. So when are you going to move to the other 
system?
    Mr. Shivers. That process is ongoing right now.
    Mrs. Maloney. Well, can you send us a report exactly how 
it's happening, and why is this going to improve it? And I--I 
think that--that the fact that the crime in Charlottesville did 
not even make it into your hate crime statistics shows how 
flawed it is. And how can we have good policies if we don't 
have good data?
    My time is up.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Raskin. Thank you, Ms. Maloney.
    The gentlelady from West Virginia, Mrs. Miller, is 
recognized for five minutes.
    Mrs. Miller. Thank you, Chairman Raskin and Ranking Member 
Hice, and thank you all for being here today.
    I know your agencies are on the row line in combating 
domestic terrorism, racism, and hate crimes, as well as 
providing critical support for our first responders. This role 
is critical, and we must ensure that we're empowering our 
Federal agencies in their efforts to stop hate and to keep 
Americans safe.
    People who commit these crimes and hold such hate in their 
heart have absolutely no place in our society.
    We must stop and condemn these actions at every level.
    Mr. McGarrity and Mr. Shivers, the question is a little 
similar to the last ones.
    A few weeks ago, this subcommittee held a hearing on this 
issue, and we heard from our witnesses that there are many 
current shortfalls that exist in data collection for hate 
crimes and domestic terrorism. Was wondering if you might be 
able to elaborate on this topic from the agency perspective?
    Mr. McGarrity. From the domestic terrorism perspective, we 
certainly--we don't have a domestic terrorism statute that--
like a material support statute for terrorism. So when a 
prosecutor charges something, he is going to use--he or she is 
going to use other title 18 U.S. Code violations, maybe 
possession of a weapon, some other commission of a crime.
    Or in 50 percent of our crimes--50 percent of our subjects 
that are arrested are actually arrested on state/local charges 
in coordination with the Joint Terrorism Task Force.
    So, right there, the narrative as far as some of the 
subjects--now, these are open subjects, under investigation by 
the FBI Joint Terrorism Task Forces, are arrested by state/
local crime or by other Federal crimes that do not have the 
word ``terrorism'' in there. So, right there, the narrative in 
the American public would not necessarily see that.
    What we do, we push out to all of our Joint Terrorism Task 
Force, through the executives, updates on those types cases 
obviously. Where we can, we like to use domestic terrorism in 
the press release with the Department of Justice. Or in our 
comments, if we're allowed to, at a point in the case in the 
charging document, we will do that.
    You have seen that more recently in a case in Baltimore 
where the U.S. Coast Guard lieutenant, charged with a drug 
charge, with possession of a weapon, and then in the detention 
hearing memo, it was referred to as domestic terrorism. So 
that, I think, is part of the issue.
    We certainly come and brief the House Homeland committee, 
and anytime we've been asked to come brief any of the 
committees, we come and we brief what the threat is. So we're 
constantly doing that to your staffers as well as to different 
committees here on the Hill.
    What we also do is to--because really it's our state/local 
partners who are most important. The International Association 
of Chiefs of Police, the major city sheriffs, I've been in 
front of both of those committees briefing on domestic 
terrorism.
    Mrs. Miller. Thank you.
    Mr. Shivers, do you have anything?
    Mr. Shivers. Just to--to further address some of the issues 
and the discrepancies.
    In relation to the Charlottesville case, that case was 
actually prosecuted as a hate crime. And also I would like to 
draw a distinction between a hate incident and a hate crime.
    Obviously, if someone yells a racial slur at someone, you 
know, they are protected by the First Amendment. And what 
happens is in many instances, those incidents may be thought of 
by the victim to be a hate crime when it's more of a hate 
incident. A hate crime occurs if you have that similar 
incident, but it evolves into a criminal act directed at a 
victim based on his or her protected characteristics.
    And so, when we talk about statistics, one has to make that 
distinction between a hate crime and hate incident.
    Mrs. Miller. That's good. What changes would you make to 
improve the data collection?
    Mr. Shivers. Well, again, I believe that the transition to 
NIBRS will give greater clarity, because again in the case that 
was cited earlier, it was the homicide and not the hate crime 
that was captured.
    Under NIBRS, you will have the ability to capture a number 
of criminal acts pertaining to one specific arrest.
    So, if there is an assault, if there is a hate crime or 
some other crime that is committed, all of those crimes would 
now be captured in NIBRS, where historically, with the 
hierarchy rule, only the most egregious crime was captured.
    So we are in the process of continuing to roll out NIBRS. 
The rollout has been underway since 2015. But some of the 
challenges are providing our state and local partners with the 
hardware and software where they need to map their criminal 
violations to NIBRS and then also go through the training and 
become certified.
    So, again, we anticipate NIBRS completely being rolled out 
by 2021, but it's an ongoing process, and there are--roughly 45 
percent of the law enforcement agencies that report to the UCR 
have all transitioned to NIBRS.
    Mrs. Miller. Okay. One other quick question.
    Mr. McGarrity, how have you seen domestic terrorism and its 
threat to the country evolve over time?
    Mr. McGarrity. Sure. I mean, both on the domestic terrorism 
side and the international terrorism side, with the homegrown 
violent extremist threat, I've seen an evolving threat with 
more self-insular actors, lone actors that we've seen self-
radicalized online, seen them mobilized by themselves on the 
internet and radicalized by themselves on the internet and 
mobilize to violence in shorter periods of time than we've seen 
in the past.
    I've been in this since 9/11, literally that day. And you 
have in the U.S. our threat, both on the domestic terrorism 
side and international terrorism side, is a lone actor. What 
you saw after 9/11 of who we arrested here in the United 
States, different conspiracies that you saw, we're seeing less 
and less of those type conspiracies, larger groups, five to 
seven, and more single actors.
    So of those approximately 115 arrests on the domestic 
terrorism side, most of them are not conspiratorial, those are 
single-defendant subjects; and the same thing on the 
international terrorism side. So right there is an evolving 
threat.
    It's the internet. It's the internet. It's your ability to 
communicate with someone anywhere in the world and find a 
justification, whatever that justification is, whatever that 
ideology is, it's almost irrelevant, to justify the violence 
you want to commit.
    Mrs. Miller. Thank you, I yield back.
    Ms. Ocasio-Cortez.
    [Presiding.] Thank you.
    The chair now recognizes the gentleman from Missouri, Mr. 
Clay.
    Mr. Clay. Thank you, Madam Chair.
    Let me share with the panel some of my thoughts and 
concerns.
    The FBI's Black identity extremist designation could 
potentially categorize and criminalize Black activists and 
supportive organizations and people seeking to hold police 
accountable for unconstitutional policing practices.
    We should all oppose terrorism in every form, but the FBI's 
decision to use the color of someone's skin as a tool to 
identify terrorists takes our country back to dark days.
    As the name suggests, the unique feature of this contrived 
threat is the color of a person's skin. While the FBI should be 
redoubling its efforts to combat violence inspired by White 
supremacists, the concern expressed by Members of the 
congressional Black Caucus who met with the FBI in 2018 is that 
the Bureau may end up targeting those seeking to defend the 
rights of racial minorities, not those who are actually engaged 
in terrorism.
    Just this morning, I heard from constituents about the 
uptick in hate crimes in Missouri, and these crimes were not 
relative to any Black extremist.
    So I suggest the FBI review the allocation of funds, 
personnel, strategic planning and grant programs. The dollars 
must follow the emerging threat.
    In 2006, the FBI warned of the potential consequences of 
White supremacist groups infiltrating local and state law 
enforcement, indicating it was a significant threat to our 
national security. The bulletin indicated this infiltration 
would lead to the disruption of the investigation and the 
recruitment of fellow White supremacist followers.
    A recent study by the Plain View Project examined the 
social media accounts of 3,500 current and retired police 
officers from across the country; 1.5 out of five officers had 
public posts reflecting bias, applauding violence, disregarding 
due process, or using dehumanizing language.
    In my own congressional district in St. Louis, over 400 
racist, violent, or bigoted Facebook posts by current or former 
St. Louis Metropolitan Police were also revealed.
    Let me ask you, Mr. McGarrity, that FBI bulletin was issued 
in 2006. Would you agree that recent data and public social 
media posts indicate that infiltration by White supremacists is 
still a national security threat?
    Mr. McGarrity. First, I haven't read the 2006 report you're 
referring to, but you used the term Black identity extremists 
and then you used the term White supremacist. And the term I'm 
using is racially motivated violent extremist, by the very fact 
that we're focused on the violence. We're not focused on the 
skin of anyone; we're focused on the violence. And from a 
domestic terrorism point of view, that's what we focus on, 
because that is what allows us to predicate a case.
    So when that Black identity extremist, since I've been here 
we have not used that term. But also, you're not hearing me 
saying White supremacist as a group. I'm focused on the 
violence. And so there's a First Amendment issue of us going 
trolling on the internet looking at different posts from 
people. We can't do that.
    Mr. Clay. Okay. Well, is it a problem if local law 
enforcement and state law enforcement is infiltrated by White 
supremacists? Is that a problem in carrying out justice?
    Mr. McGarrity. That would be a problem if they are looking 
to use that ideology for violence and, obviously, they're in a 
position of trust. So yes, I would be suspect on that.
    But, again, I would go back. Ideology in itself is a First 
Amendment right.
    Mr. Clay. I'm not disputing that.
    Anyway, Mr. Shivers, does the FBI provide training and 
resources to state and local law enforcement agencies to help 
them identify and prevent infiltration by these groups of local 
and state law enforcement?
    Mr. Shivers. So the training that we provide to our state 
and local partners is comprehensive. It's not designed to look 
at any particular group.
    Again, we're concerned that our law enforcement partners 
have a good understanding and ability to recognize hate crimes.
    And one of the things that we hope is that through the 
training and education, that now, as we had discussions about 
the accuracy of reporting, there may be incidents that state 
and locals may not have thought was a hate crime, but based on 
the training that we provide they have the ability now to 
recognize some of those hate crimes and potentially have some 
of those prosecuted federally.
    Mr. Clay. And my time is up, Madam Chair.
    But looking at almost 25 percent of local and state law 
enforcement posting hateful things on social media, that tells 
me there's a culture problem in law enforcement in this 
country.
    I yield back.
    Ms. Ocasio-Cortez. Thank you.
    And the chair now recognizes the gentlelady from Florida, 
Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Ms. Neumann, my questions are going to be for you.
    On April 19, 2019, the Department of Homeland Security 
announced the establishment of a new Office for Targeted 
Violence and Terrorism Prevention, TVTP. However, we really 
have very few details about its exact mission, its budget, and 
its staffing.
    Under the Obama Administration, its predecessor office had 
a budget of more than $21 million with 16 full-time employees, 
25 contractors, and managed $10 million in grant funding to 
community organizations to prevent domestic terrorism.
    That office was then replaced by the Office of Terrorism 
Prevention Partnerships, which had a reduced budget of $9 
million, a staff of only seven full-time employees, and zero 
dollars in contracts.
    So I have a series of questions about the shift and would 
like to try to get some detail on what is going on with the 
replacement office.
    Can you explain why DHS decided to make significant cuts to 
the office intended to prevent terrorism? Where were the rest 
of the funding and resources diverted to at DHS from the 
predecessor office? For what purpose were those funds 
reallocated?
    Can you tell us what the current total budget and number of 
staff for this new office, TVTP, is, and have there been 
additional cuts? And who is the head of this office? Who do 
they report to in the chain of command?
    Ms. Neumann. Thank you, ma'am. Yes, Congresswoman, I will 
do my best to try to dig into all of this.
    In regular appropriations, in Fiscal Year 2016, the 
predecessor office that you referenced, Office of Community 
Partnerships, had approximately $3 million in their budget. 
There was separately a one-time appropriation of $10 million 
for the Countering Violent Extremism Grant Program.
    That money is still--it was a two-year grant program. It's 
still underway. The grant program will end this summer. And 
then there was a separate reprogramming of $8 million for 
additional contract support for the office, and that's how you 
end up to the $21 million number. The $3 million number for the 
office has stayed relatively static over the course of the last 
four fiscal years.
    The current office--and you're right, it was rebranded a 
couple of times, and, if I may, the rebranding was, in part, 
there was a general recognition by both--by all sides that the 
countering violent extremism moniker had become fairly tainted. 
There was a dialog in 2016 under the Obama Administration about 
perhaps changing that. And when the----
    Ms. Wasserman Schultz. Let me drill down on my question a 
little bit more clearly.
    Ms. Neumann. Sure.
    Ms. Wasserman Schultz. It very much seems like--I mean, you 
certainly spoke poignantly about your concern about addressing 
White supremacy and domestic terrorism. Yet actions speak 
louder than words. I'm a show me person, not a tell me person.
    So the actions that this administration has spoken, by 
shifting resources elsewhere, by reducing the budget that was 
previously appropriated and spent for combating domestic 
terrorism sends a signal that you don't care about it as much 
and you're not making as much of an effort to combat it, 
further evidenced by the details and facts that my colleagues 
who have asked questions before me.
    So where did the money that was previously being spent for 
this office to fight domestic terrorism, where is it being 
spent now? Who's in charge of the office? What's the current 
total budget? And how many staff does this have?
    Ms. Neumann. So let me start with the $3 million has stayed 
the same. So we're only talking about the $8 million that was 
done by reprogramming. It wasn't in a standard budget process.
    So you asked, where did it go?
    Ms. Wasserman Schultz. I'm an appropriator, so I'm very 
familiar with the reprogramming process.
    Ms. Neumann. Okay. Got it. I am not, so I will defer to you 
on that.
    Then the 10 million, the grant program, is still underway. 
You are correct that the administration did not request for the 
grant to be renewed in Fiscal Year 2017 or 2018, in part 
because we were looking to see the results of the grant. It was 
fairly controversial at the time that it was awarded. There 
were critics that prevention shouldn't be funded because it 
didn't work.
    I think we've proven that it does work. The grant program 
is still being evaluated, but we have enough anecdotes and good 
statistics----
    Ms. Wasserman Schultz. Didn't ask for it 2019 either. What 
about 2020?
    Ms. Neumann. So we're getting--we got these results I would 
say late fall. We missed the Fiscal Year 2020 budget cycle. The 
Secretary is very committed to working with the Congress and 
working through our budget processes to get this addressed.
    Ms. Wasserman Schultz. Who's the head of the office?
    Ms. Neumann. The head of the office is an Acting Director, 
David Gerstein. He's a senior----
    Ms. Wasserman Schultz. Is there anyone in the Department of 
Homeland Security that isn't acting? There's a lot of acting.
    Ms. Neumann. I am not acting, ma'am.
    Ms. Wasserman Schultz. Okay. Well, then I'm glad that you 
are here, because at least there is some permanence with 
someone who is answering questions.
    Who does the head of this office report to in the chain of 
command?
    Ms. Neumann. Mr. Gerstein reports to my Deputy, Nate 
Blumenthal. He's the Deputy Assistant Secretary for Threat 
Prevention who reports to me. I report to the Under Secretary 
for Policy, who reports to the Secretary.
    Ms. Wasserman Schultz. Okay. Unfortunately, that's a fairly 
low prioritization in terms of the chain of command as far as 
the expression of significant commitment that combating 
domestic terrorism requires.
    I have other questions, but, like I said, I think the 
evidence demonstrated by the answers to my questions show that 
actions are not matching the words. And it would be nice if 
there was a convergence between your verbal commitments and the 
administration's verbal commitments and the actual actions that 
you propose and implement.
    I yield back.
    Ms. Ocasio-Cortez. Thank you.
    As chair, I will now recognize myself for five minutes of 
questioning.
    We had a hearing a few weeks ago, the first in a series on 
White supremacy and its growing role in the United States right 
now. And at this hearing we discovered, through expert witness 
testimony, that not all of these incidents seem to be treated 
with the similar consistency.
    But we've also heard from experts that whether the FBI 
classifies extremist violence as, quote, domestic terrorism or 
a hate crime has major implications on resource allocation and 
prioritization within the Bureau.
    Mr. McGarrity, the FBI considers preventing terrorism its 
No. 1 priority. Isn't that right?
    Mr. McGarrity. That is correct.
    Ms. Ocasio-Cortez. And, Mr. Shivers, what about civil 
rights violations, such as hate crimes, how do they rank among 
the FBI priorities?
    Mr. Shivers. Within the Civil Rights program it is the No. 
1 priority.
    Ms. Ocasio-Cortez. So within the Civil Rights program. But 
the FBI overall, doesn't it seem that FBI agents would have 
more of an incentive to pursue domestic terrorism cases over 
hate crime cases?
    Mr. Shivers. Well, again, sometimes those cases overlap. 
And so in a number of instances you may have a civil rights 
investigation and a domestic terrorism investigation open.
    Ms. Ocasio-Cortez. And I do see here that the Civil Rights 
program policy instructs agents to open parallel terrorism 
investigations whenever a suspect of a hate crime has any nexus 
to a White supremacist group, correct?
    Mr. Shivers. Correct.
    Ms. Ocasio-Cortez. We've seen White supremacist attacks 
that were clearly domestic terrorism. Experts, in fact, the 
Acting AG, Jeff Sessions, even called some of these incidents 
domestic terrorism incidents. The Emanuel A.M.E. Church 
shooting of Black Americans in Charleston and the Tree of Life 
Synagogue shooting in Pittsburgh of Jewish people, those were 
only designated and charged as hate crimes, not domestic 
terrorist incidents.
    Mr. McGarrity, why did the FBI not believe that these 
incidents were domestic terrorist incidents?
    Mr. McGarrity. That's not correct. I don't know who told 
you that we didn't. But we certainly had cases open on them in 
both those cases. And I wasn't here for the Dylann Roof case, 
but certainly in our own Department of Justice Civil Rights, 
about three, four weeks ago in their testimony actually stated 
that it was a domestic terrorism event, charged through the 
Civil Rights Division of the Department of Justice for a hate 
crime.
    I was here for the Tree of Life. I will tell you I remember 
that day distinctly. It was worked as both a domestic terrorism 
case and a hate crimes case, and it's still worked that way.
    Ms. Ocasio-Cortez. And so you are disputing that the 
A.M.E.--you're saying that A.M.E. was charged with domestic 
terrorism, Dylann Roof?
    Mr. McGarrity. So you're using the word ``charge.'' So, as 
I said before, there's no domestic terrorism charge, like 18 
U.S.C. 2339A, B, C, D, for a foreign terrorist organization.
    So what we do, both on the international terrorism side 
with homegrown violent extremists and domestic terrorists, 
we'll use any tool in the toolkit to arrest them, hopefully 
left of attack.
    Should it be after, likely that hate crime statute will 
come into play through the Civil Rights Division as a charge, 
because it's a good Federal charge for us to use in those 
cases.
    Ms. Ocasio-Cortez. And the Tree of Life----
    Mr. McGarrity. It shouldn't be stated that it's not 
domestic terrorism. In fact, on the record, it's stated it's 
domestic terrorism.
    Ms. Ocasio-Cortez. And the same thing with the synagogue 
shooting?
    Mr. McGarrity. Yes.
    Ms. Ocasio-Cortez. Okay. So we have two conflicting 
testimonies.
    Mr. McGarrity. Well, I mean, I can go back to May 8, 2019, 
from the Department of Justice on the record, that statement, 
called it domestic terrorism cases involving civil rights 
charges, too, including some of the most serious attacks in 
recent years: Dylann Roof, African American parishioners 
engaged at the Emanuel African Methodist Church; James Field at 
the Unite the Right rally in Virginia; and then also Robert 
Bowers. All three events were domestic terrorism.
    Ms. Ocasio-Cortez. So that's the statement, but the actual 
charge, was it--was the actual charge domestic terrorism?
    Mr. McGarrity. You're not going to find an actual charge of 
domestic terrorism out there. If you look at Title 18, right, 
if you're looking for----
    Ms. Ocasio-Cortez. Well, it says here that--but at the San 
Bernardino shooting or the Orlando Pulse nightclub shooting, 
they were designated and charged as domestic terrorist 
incidents.
    Mr. McGarrity. They were charged--I'd have to go back and 
look--they were charged likely with--if there was a connection 
to a foreign terrorist organization, it would likely fall under 
18 U.S.C. 23A or B.
    Ms. Ocasio-Cortez. So because the perpetrator was Muslim, 
they are--doesn't it seem that because the perpetrator is 
Muslim----
    Mr. McGarrity. That is not correct. That has nothing to 
do----
    Ms. Ocasio-Cortez.--that that designation would say it's a 
foreign organization?
    Mr. McGarrity. No, that's not correct. That is not correct.
    Ms. Ocasio-Cortez. Okay. Can you explain why?
    Mr. McGarrity. Yes. Homegrown violent extremists, who we--
most of the people we arrest in the United States, homegrown 
violent extremists, self-radicalized, born in the U.S., it 
doesn't matter what religion----
    Ms. Ocasio-Cortez. But the Orlando Pulse club shooter meets 
those qualifications, and he is--you're implying----
    Mr. McGarrity. He was worked as an international terrorist 
because he was following, under the definition of how we work 
homegrown violent extremist cases----
    Ms. Ocasio-Cortez. But he was homegrown and self-
radicalized.
    Mr. McGarrity [continuing]. how we work homegrown violent 
extremist cases, under the global jihad, we worked it under 
international terrorism, that is correct.
    Ms. Ocasio-Cortez. Is White supremacy not a global issue?
    Mr. McGarrity. It is a global issue.
    Ms. Ocasio-Cortez. So why are they not charged with foreign 
terrorism?
    Mr. McGarrity. Because the U.S. Congress doesn't have a 
statute for us for domestic terrorism like we do on a foreign 
terrorist organization, like ISIS, al-Qaida, Al Shabaab.
    Ms. Ocasio-Cortez. Could you see how this could create 
issues and discrepancies with how violent extremism by Muslim 
perpetrators could potentially, even if it's unintentional, but 
that there are holes and there are gaps here, not through your 
fault or any one specific person's fault? It could be our fault 
as Congress.
    But could you see how one could see how the way that we are 
pursuing and charging White supremacy, particularly if they 
tend to be charged with hate crimes, and where that same type 
of violence committed by a Muslim extremist could be charged 
with domestic terrorism.
    Hate crimes and domestic terrorism are treated and 
charged--they're different crimes and they could be pursued 
differently with different resource allocations. Can you see 
how people would say that these are being treated differently?
    Mr. McGarrity. Some of the definitions we're using, I think 
we're talking past each other. But I will tell you from the 
domestic terrorism side and on the international terrorism 
side, on the domestic terrorism side, we don't charge--of those 
115, approximately 115 arrests we did last year, not all of 
them were hate crime charges. We're going to charge someone 
left of attack with any charge we have under Title 18 in the 
U.S. Code or a state and local charge.
    So predominantly, I would say--I'd have to go back and 
look--most of them are not hate crime charges on the domestic 
terrorism side.
    Ms. Ocasio-Cortez. Okay. Thank you very much.
    I will now move to recognize the gentlelady from Illinois, 
Ms. Kelly.
    Ms. Kelly. Thank you, Madam Chair.
    The DHS Office of Intelligence and Analysis is the only 
office in the U.S. intelligence community statutorily charged 
with delivering intelligence to state, local, tribal, 
territorial, and private sector partners.
    During a DHS briefing for the committee, it was noted that 
an I&A unit focused exclusively on the threat from homegrown 
violent extremists and domestic terrorists was disbanded by the 
administration and moved to the National Counterterrorism 
Center. Additionally, some field agents were reassigned to the 
FBI, where they would allegedly be better suited to work on 
this issue.
    Ms. Neumann, how important was the work of this I&A unit in 
preventing White supremacist terrorism?
    Ms. Neumann. Thank you for the question, Ms. Kelly.
    My office is distinct from the Office of Intelligence and 
Analysis. We are customers of I&A. The office you're referring 
to is in the process of working toward a mission center model 
approach, which is an approach that's been recognized in the 
Office of the Director of National Intelligence as the best 
practice.
    As part of that, they are forward deploying analysts to 
places where they can better collect intelligence, including 
the FBI is the predominant place since we don't collect 
intelligence the way that we do foreign intelligence. It's 
their cases that tell us the most within the Federal Government 
about the environment within the domestic terrorist various 
movements.
    So it's my understanding that's the intent there. They are 
still doing the work. They are still producing intelligence 
products. I read a few of them last week. So I don't know if 
that answers your question, but that's my level of knowledge 
about I&A's decision.
    Ms. Kelly. So is this why the staff was reassigned, because 
it was felt that this would be a better way to get information 
and do their jobs----
    Ms. Neumann. Yes.
    Ms. Kelly [continuing]. more efficiently?
    Ms. Neumann. I'd like to--if it's helpful, I can go back 
and ask I&A to provide an answer in writing for the record.
    Ms. Kelly. Okay.
    Ms. Neumann. I know they testified on this recently.
    But yes, in general, it's to be able to get closer to where 
the good data is, yes.
    Ms. Kelly. Do you believe collaboration and information 
sharing between Federal agencies and state and local law 
enforcement agencies is crucial to preventing domestic 
terrorism?
    Ms. Neumann. Yes, ma'am.
    Ms. Kelly. What is DHS currently doing to coordinate with 
state and local law enforcement information sharing and how 
does this work without funding?
    Ms. Neumann. I'm sorry, the last part of your question?
    Ms. Kelly. How does it work without funding?
    Ms. Neumann. Without funding.
    So the Department has a number of mechanisms in place to 
share information. Most of the formal intelligence products 
that are shared, particularly around domestic terrorism, are 
going to be done in partnership with the gentlemen at this 
table. So I'll defer to them here in a moment on aspects of how 
those products are produced and when they're pushed out.
    The Department supports state and local fusion centers. We 
have agents or analysts in fusion centers. We provide training. 
We provide access to classified equipment.
    And on the funding piece, all of that takes funding. So the 
information-sharing infrastructure, which in my previous part 
of my career I was part of designing and implementing, is very 
robust. We've worked on it for 18 years. I think it's solid, 
solid pipes to be able to flow the information.
    Ms. Kelly. On May 8, 2019, during the House Homeland 
Security Committee's hearing on domestic terrorism, DHS 
Principal Deputy Under Secretary Brian Murphy for the Office of 
I&A testified there has been no reallocation of resources, just 
a reevaluation within the agency to eliminate any duplication 
of efforts.
    Ms. Neumann, was the DHS I&A domestic terrorism unit 
supposedly disbanded because it was duplicative?
    Ms. Neumann. Again, my understanding is that it's not a 
disbanding, in that it's moving people to where they can get 
better access to data. But I'm happy to go back and get 
clarification from my colleagues.
    Ms. Kelly. Would you agree that redundancy in intelligence 
and law enforcement is a good thing?
    Ms. Neumann. Yes. When there are resources available for 
it, you always look for red teaming and alternative analysis.
    Ms. Kelly. Do you know how many employees were part of this 
unit?
    Ms. Neumann. I do not.
    Ms. Kelly. Do you not believe the urgency of this threat 
warrants these additional employees?
    Ms. Neumann. Again, I don't know what their current 
resourcing is. And I will tell you that Secretary McAleenan--
yes, ma'am.
    Ms. Kelly. Mr. McGarrity, are these employees still with 
the FBI, the employees we're talking about, are these employees 
still with the FBI?
    Mr. McGarrity. Which employees are you talking about 
specifically?
    Ms. Kelly. I'm talking about the employees that were 
disbanded but then supposedly went--some--they were assigned to 
different units.
    Ms. Neumann. Detailed.
    Mr. McGarrity. We have DHS analysts detailed to our 
Domestic Terrorism Section, that is correct.
    Ms. Kelly. And they're still with you?
    Mr. McGarrity. We do have--I'd have to go back in the 
numbers. But I have talked to Brian Murphy, who was here when 
we testified a couple weeks ago. We have some. We might even be 
getting some more.
    Ms. Kelly. So this change has worked?
    Mr. McGarrity. We have a very good relationship with DHS. 
I'll tell you, when we put out--I think what you're getting at 
is, what are we doing to put the intelligence out to the state/
locals law enforcement partners?
    So we do it through a joint intelligence bulletin. Every 
joint intelligence bulletin that we put out on domestic 
terrorism or international terrorism, any type of terrorism, we 
do jointly with DHS I&A.
    So we've actually had a significant increase. So far in 
Fiscal Year 2019, we have surpassed already what we did in 
Fiscal Year 2018 for domestic terrorism joint intelligence 
bulletins, and they go directly to the state/locals. We also go 
through the Joint Terrorism Task Force executive committees and 
our task force partners to push that information out.
    Ms. Kelly. My time is way over. Thank you.
    Mr. Raskin.
    [Presiding.] Thank you very much, Ms. Kelly.
    And I yield to Mr. Roy for five minutes.
    Mr. Roy. I thank the chairman.
    And I apologize to the witnesses that I had to step out for 
a little bit to go to another hearing. Such is the state of the 
way things operate here sometimes we have competing hearings.
    Ms. Neumann, a quick question with respect to funding. Do I 
understand correctly that the funding levels that are currently 
being allocated for purposes of combating domestic terrorism 
broadly are relatively similar to what they were previously, 
but there were some different buckets that kind of conflate 
those numbers? Could you expand on that really quickly?
    Ms. Neumann. Sure. Thank you for the question.
    Yes, the amount of money that was associated with the 
office that is now called Targeted Violence and Terrorism 
Prevention has remained relatively the same. We have the $10 
million grant program that was a two-year period of performance 
coming to a conclusion. We're evaluating it and assessing 
internally about future requests for funding associated with 
that.
    And there was an additional $8 million reprogramming 
request to provide contractors in the field. Again, we were 
evaluating whether the concept of field staff worked and, if 
so, if a contractor model was the way we wanted to go.
    That is one of the things that the RAND study also looked 
at for us, was field staff. And we still have some more 
internal deliberations to consider, but I don't think we're 
going to be looking to contractors to be doing this kind of 
prevention work in the future.
    Mr. Roy. And is it true that the previous administration 
had a fairly significant focus, appropriately, on foreign 
terrorist efforts, including ISIS and otherwise, and then how 
that connected back to those that are homegrown?
    Ms. Neumann. Yes, sir. The countering violent extremism in 
general was focused on, if you go all the way back to 2008, al-
Qaida. And then with the rise of the homegrown violent 
extremist with ISIS, it shifted to focus on the lone individual 
radicalizing to violence.
    So yes, appropriately, the Obama Administration was focused 
on designing prevention programs to address that threat. Around 
2017, it was Secretary Kelly that noted--you may remember there 
was a series of incidents at Jewish cemeteries in March 2017, 
and he directed, since we were reviewing the grant program, to 
make sure that the grants could be--the grantees, potential 
grantees, were using their funds for more than one ideology, to 
try to be as broad as possible. So that opened the aperture to 
address domestic terrorism, and many of our grantees do that 
now.
    Mr. Roy. So to be clear--and this is, by the way, no 
criticism at all on the previous administration--there was some 
focus there with respect to foreign terrorist organizations and 
the networks here in the United States. But then the current 
administration, Secretary Kelly, looked at some of the threats 
that we are now looking at and made a change to address that, 
true?
    Ms. Neumann. Yes.
    Mr. Roy. In addition, we talked a little bit about the RAND 
study. And it is true that the Trump administration requested 
the RAND study on the terrorism prevention and is now 
implementing the results of that study to have an objective 
third-party view?
    Ms. Neumann. Yes.
    Mr. Roy. And then, in addition, with respect to--maybe this 
might be better for Mr. McGarrity--with some of the questioning 
you had from my colleague from New York just a moment ago, it 
is true, right, that there is not a United States Code fill in 
the blank domestic terrorism statute to prosecute crimes in the 
United States under, correct?
    Mr. McGarrity. Yes. There is a statute, but it defines what 
domestic terrorism is. It's not a statute you could charge----
    Mr. Roy. Right.
    Mr. McGarrity [continuing]. like 2339 on the other, for 
foreign terrorists.
    Mr. Roy. Correct. So that's why you were describing there 
were no charges under it, because there was nothing to charge, 
correct?
    Mr. McGarrity. Right. So the narrative is not out there, 
correct.
    Mr. Roy. However, there are numerous crimes in which you 
can--under which you can charge people who are engaged in 
criminal activity, and that happens all the time, whether it's 
hate crimes or other crimes, right, engaged in criminal 
activity, Federal, state and local, correct?
    Mr. McGarrity. Yes.
    Mr. Roy. And that happens all the time on a daily basis.
    Mr. McGarrity. We use 2332, weapons of mass destruction 
against a Federal building. We use a variety of gun charges, 
drug charges, whatever it is to arrest the person prior to the 
actual attack.
    Mr. Roy. And along those lines, with respect to those kind 
of criminal charges, is it safe to say there's a distinction 
when we're talking about foreign terrorist organizations and if 
you're talking about the concept of a domestic terrorist 
organization or entity, that there are some constitutional 
questions that arise, right, that are distinct between our 
focusing on our intelligence gathering and our efforts in 
criminal activities when we're focusing on foreign terrorist 
organizations, communications they have with American citizens, 
how we surveil that information, what we do with that 
information, versus targeting domestic only American citizens 
or at least those who have permanent legal status?
    There's a distinction there that complicates a bit how we 
would set up a criminal structure to target, quote/unquote, 
domestic terrorism. Is that a fair statement?
    Mr. McGarrity. That's right. Yes.
    Mr. Roy. And then one last statement, one last question 
along these lines for Ms. Neumann again.
    Is there anything that you would like to add with respect 
to what you think the positive steps that have been taken under 
this administration, under what you've seen and acted upon, to 
advance the ball with respect to domestic terrorism?
    Thank you.
    Ms. Neumann. Thank you for the question.
    I'd like to point out that this administration's CT 
strategy is the first strategy that incorporated domestic 
terrorism into it. The previous strategies were focused on 
international terrorism.
    There's a recognition in the CT strategy, there's a pillar 
that's called countering radicalization and recruitment, and it 
point blank says we're just not doing enough.
    So there's an acknowledgement by CT practitioners, by 
prevention experts, I mean, you had an entire hearing a month 
ago on this topic, we know we're not doing enough.
    Part of the reason we haven't done enough is because things 
have not--it's bureaucratic. It's boring. Things haven't been 
institutionalized.
    In order for government to work, you have to 
institutionalize it. You either need to authorize it through 
Congress or you need to get it in executive order or National 
Security Presidential Memoranda. That was never done in the 
previous administration. And now we're working to figure out 
how do we do that so that the budget process can work and we 
can get proper funding for prevention efforts moving forward.
    Mr. Raskin. Thank you very much. The gentleman yields back.
    Thank you for your candor, Ms. Neumann. I appreciate that. 
It is refreshing to hear it.
    And I yield now to the gentlelady from Massachusetts, Ms. 
Pressley.
    Ms. Pressley. Thank you, Mr. Chair.
    I want to pick up on my line of questioning from the last 
hearing and also some of the comments from Representative Clay.
    So since 1995, Black Americans have been victims of 66 
percent of all racially motivated hate crimes. And, again, I'm 
sure that's a, you know, underreported count.
    In 2017 alone, Black Americans were targeted in more than 
half of all hate crimes reported. That's what we know. So what 
we know is that the numbers don't lie. And Black Americans 
continue to find themselves at the greatest risk. Which is why 
this designation of Black identity extremism seems particularly 
absurd.
    We had a former FBI official on the record who said that 
Black identity extremists pose no threat to our public safety. 
Would you agree with that, Mr. McGarrity?
    Mr. McGarrity. I would pose any extremist who wants to 
commit violence is a threat to society, whether it's White or 
Black.
    I wasn't here when the Black identity extremist assessment 
was written, but it was written back in 2016 during a horrific 
time of July 2016, July 7 and July 17, two events on July 7, 
targeting of police officers.
    Ms. Pressley. Excuse me. I'm so sorry. Reclaiming my time.
    I'm aware of that incident. And I think that the 
designation was created in the wake of six isolated and 
unrelated incidents of violence. The only common denominator 
there is that they were Black. Is that correct?
    Mr. McGarrity. Yes.
    Ms. Pressley. Okay. Reclaiming my time.
    Mr. McGarrity. And so very similar to the racially 
motivated violent extremists.
    Ms. Pressley. I'm sorry, reclaiming my time.
    So those were six unrelated incidents where the only common 
denominator was race.
    So in order for a group to be categorized as extremist or 
as a credible threat, how many hate-related incidents need to 
take place? Is there a number? How many hate-related incidents 
need to take place in order for a group to be designated as 
extremist and a credible threat? Because this was six, right?
    And the ADL, the Anti-Defamation League, I just met with 
them. They count 32 White supremacist extremists who murdered 
individuals in the U.S. since 2016.
    I just want to make sure that our investment and our 
surveillance is commensurate with those that are actually 
disproportionately most being victimized and we're not creating 
categories as another excuse to target and racially profile one 
of the most vulnerable communities.
    So what is the criteria that determines a group is a 
credible threat? This was 6 incidents, and I just talked to you 
about 32.
    Mr. McGarrity. So to be clear from my last testimony, we 
don't work groups. We don't work ideologies. We don't work 
movements. What we work are those individuals who have an 
ideology, are using an ideology to commit violence.
    Ms. Pressley. Okay. So how----
    Mr. McGarrity. If we have six individuals who are looking 
to commit violence and they are together, we will have six 
cases on those----
    Ms. Pressley. Reclaiming my time. They were unrelated. So 
how many extremist killings has the FBI linked to Black Lives 
Matter or similar Black activist groups?
    Mr. McGarrity. We don't work Black Lives Matter. It's a 
movement. It's an ideology. We don't--that's--we don't work 
that.
    Ms. Pressley. Okay. So the answer is none. So can you just 
say that for the record? There's been no extreme--there's been 
no killing that the FBI can link to Black Lives Matter or 
similar Black activist groups, to your knowledge?
    Mr. McGarrity. To my knowledge--I'd have to go back--but to 
my knowledge right now, no.
    Ms. Pressley. None, Okay. All right.
    So, again, going back to what created this absurd 
designation, these were six incidents. And I don't want to look 
at those tragedies lightly, but they were unrelated. So there 
was nothing organized there.
    You said that you are intentionally not using, until Rep 
Clay brought it up, the term ``Black identity extremist.'' So 
you're not using the term, but we still have the designation, 
correct?
    Mr. McGarrity. No. I've been in this job 17 months. We 
don't have that designation.
    Ms. Pressley. The designation no longer exists?
    Mr. McGarrity. Hasn't existed since I've been here for 17 
months.
    Ms. Pressley. Okay. So no one is being surveyed or 
monitored under the category of Black identity extremist?
    Mr. McGarrity. No.
    Ms. Pressley. Okay, great. Thank you.
    I just want to make sure, because, again, we have some 
conflicting information here. I know there are a number of 
organizations, including the National Organization of Black Law 
Enforcement Executives, which have asked that this category be 
rolled back.
    So I just want to make sure again on the record we're clear 
that this no longer exists. There is not a Black identity 
extremist category and there is no surveillance happening based 
on that designation?
    Mr. McGarrity. I can tell you there's no surveillance on 
that activity, because we don't work that as a group. And I can 
also tell you I had a phone conversation myself with NOBLE 
about that months ago.
    So I don't know where the information is coming from. I've 
been here 17 months. We are not using Black identity extremist 
as a term or for a group.
    Ms. Pressley. And was this announced publicly or is this 
the first time you're saying this on the record?
    Mr. McGarrity. No, I said it a couple weeks ago when I 
testified up on the Hill as well.
    Ms. Pressley. Okay. I yield.
    Mr. Raskin. The gentlelady yields. Thank you very much, Ms. 
Pressley.
    I come now to the gentlelady from the District of Columbia, 
Representative Norton, for five minutes.
    Ms. Norton. Thank you very much.
    Mr. McGarrity, I am curious, between the mid-1980's and 
2005, the FBI published something which it called ``Terrorism 
in the United States.'' This was an unclassified annual report 
summarizing terrorist--what it said--activities in this 
country.
    Do you believe that that report, ``Terrorism in the United 
States,'' provided valuable information to be shared with the 
public?
    Mr. McGarrity. I was not aware of it at that time. I was 
still a field agent. But I've spoken to Chairman Thompson, I 
believe, who's been asking for that.
    We do a monthly rollup of both domestic terrorism and 
international terrorism arrests, the numbers, back to his 
committee, the House Homeland Committee. I've looked at that.
    What we'll look to do is where we can take those monthly 
reports and see how we can summarize them for some type of 
national product. We're looking into whether that's feasible.
    Ms. Norton. You're trying to recreate what you were doing--
--
    Mr. McGarrity. Back in 2005.
    Ms. Norton [continuing]. in those years.
    Mr. McGarrity. We're already doing that on a monthly basis 
for the House Homeland Committee.
    Ms. Norton. So is that being published as I speak or as you 
speak?
    Mr. McGarrity. We've given him at least one monthly report. 
I think we owe him another one coming up, per our discussions 
with him when I testified.
    Ms. Norton. Would you see that this monthly report is 
available to the chair of this subcommittee?
    Mr. McGarrity. I would be careful--you know, one of the 
things I think it's important for everyone to understand, both 
on international terrorism and domestic terrorism, when we say 
we're arresting individuals, they are subjects. Most of time it 
may not come up in the international terrorism that this person 
was even a subject of the FBI, because we're arresting them on 
a gun charge, because that's the charge that's available to us 
at the time to stop the threat.
    You might see Joint Terrorism Task Force on the arrest. You 
might see in the complaint or the charging document some 
reference to terrorism, but you may not.
    So certainly on some of these cases and cognizant of 
labeling people terrorists, we want to make sure that we're 
charging them with crimes under Title 18, because those are the 
charges available that we need at that time to stop that person 
from acting.
    Ms. Norton. All right. I'm trying to make sure that this 
new, if not report, this new document you're coming up with 
will be accessible to the public. This report, I indicated, 
between the mid-1980's and 2005 was accessible to the public. 
It was unclassified. This will be unclassified? Anybody can 
pick it up?
    Mr. McGarrity. I would still have to determine that, what 
the dissemination of that report will look like.
    Ms. Norton. Oh, it's very important, because if you're 
giving it to the committee, this committee--or the committee, 
the Department of Homeland--which committee are you giving this 
to?
    Mr. McGarrity. House Homeland.
    Ms. Norton. Homeland. Are you telling them not to make this 
available either to other----
    Mr. McGarrity. I'd have to go back and look at the--
certainly, Representative Norton, and I think you've seen that 
in the last couple months, we are pushing more information, 
more statistics out on both international terrorism and 
domestic terrorism. And I think you've seen an increase in that 
through our threat briefings up here on the Hill.
    Ms. Norton. But we just heard about this report for the 
first time, this monthly report.
    Mr. McGarrity. It's only--I think it's going into our 
second-month iteration on it. But we're committed, I'm 
committed to doing a monthly report for the House Homeland.
    Ms. Norton. And making it public to--and making it public. 
That's what you did before. That's what the FBI did before. 
That's why I'm trying to establish whether or not this is a 
report that's classified. Remember, I said unclassified. That's 
what I'm trying to establish.
    Mr. McGarrity. And point well taken. And we'll look to see 
what that would be, whether it's classified or unclassified. 
But I agree with you, we do need to give the American public 
and Congress----
    Ms. Norton. Would there be any reason to classify--you 
didn't classify any such thing when you had a report that was 
regularly published, ``Terrorism in the United States.''
    Why in the world should there be any doubt, given the 
history of generating unclassified reports, what in the world 
would lead this to possibly be classified? Give me a reason.
    Mr. McGarrity. I could say in some cases and in today's 
world that there could be an actor that is arrested here from 
the Joint Terrorism Task Force who's related to a state sponsor 
of terrorism, that at that point in our strategy for disruption 
we may not want to----
    Ms. Norton. Well, Mr. McGarrity, I must say to you, I 
believe that would have been the case in the report that I just 
indicated.
    Mr. McGarrity. That's what I'm saying, we have to work 
through those things. And certainly I want to be more proactive 
in giving information. So I'll look at it.
    Ms. Norton. All I can say is nobody will interfere with an 
ongoing investigation. And I'm sure that the report that for 
decades the FBI did publish made sure that that didn't occur.
    And, again, I'm going to ask it to the subcommittee chair.
    Mr. Raskin. Congresswoman, thank you very much for that 
line of questions.
    And, Mr. McGarrity, I want to echo the Representative from 
District of Columbia. Certainly, we would like a copy of that 
report if you're producing it for Congress, and we would 
encourage you to think about making it public. If not, we can, 
you know, continue that dialog elsewhere. But at the very least 
we would like to be able to look at it and then we can talk 
about making it public.
    Ms. Norton. Yes. Before I yield back, I would like to say, 
if you're giving it to one committee in the House, it seems to 
me automatic it should come to another committee. And I ask 
that that be provided as soon as possible to the chair of this 
subcommittee, particularly since you're already providing it to 
Congress. We're all on equal footing here, sir.
    Mr. Raskin. Thank you. The gentlelady yields back.
    And I recognize now the gentlelady from Michigan, 
Representative Tlaib, who's with us today.
    Ms. Tlaib. Thank you, Mr. Chairman. And thank you so much 
for allowing me to be here.
    This is pretty complex, the more I hear about this. And as 
an attorney as well, you know, I'm always constantly looking at 
specific actions and words and some of the other circumstantial 
evidence in regards to whether or not. And it's very 
intriguing. Mr. Shivers, you talked about hate incident versus 
hate crime and so forth.
    I believe that the government's priorities and resource 
allocation should be in coordinance with the magnitude and 
nature of the violence extremism threat in the United States. 
Do you all agree with that?
    Ms. Neumann. With one caveat. I would say risk is how we 
evaluate application of resources. We take into account threat, 
vulnerability, and consequence.
    Ms. Tlaib. Do you all agree?
    Mr. McGarrity. Yes. We go through a threat review process, 
both at headquarters and in the field, to do that, to make sure 
our resources are properly aligned against our threats.
    Ms. Tlaib. And I just want you to know many of my next 
questions, I know that you don't get to make these decisions, 
but I'm trying to educate the public but also put in the 
congressional Record.
    So, Mr. McGarrity, the FBI has indicated that approximately 
20 percent of the FBI's pending counterterrorism cases are 
characterized as so-called domestic terrorism investigations, 
which roughly parallels resource allocations of 
counterterrorism special agents in field offices working on 
domestic terrorism. Is that correct?
    Mr. McGarrity. Yes.
    Ms. Tlaib. How many pending domestic terrorism cases does 
the FBI have currently?
    Mr. McGarrity. Approximately--and, again, it's a point in 
time it's static--approximately a month ago, it was 
approximately 850.
    Ms. Tlaib. That's the number I have. Thank you.
    And White supremacist extremism cases, would all fall under 
so-called domestic terrorism, correct?
    Mr. McGarrity. Yes.
    Ms. Tlaib. My understanding is that the remaining 80 
percent of the FBI's pending counterterrorism cases would be 
characterized as the international, you called them H--I hate 
these labels, by the way, it drives me--as a Muslim, like I 
just hate them because it automatically makes me feel like 
people are targeting those of different faiths and colors and 
so forth. But called HVE cases.
    Mr. McGarrity. So I think you're----
    Ms. Tlaib. The 80 percent left from that budget, the 
resources are going to. No?
    Mr. McGarrity. No. So we have approximately 4,500 to 5,000 
terrorism cases.
    Ms. Tlaib. Okay.
    Mr. McGarrity. Of that, approximately 850 domestic 
terrorism cases. So take the rest, those are international 
terrorism cases.
    Ms. Tlaib. Okay. So----
    Mr. McGarrity. So we have approximately 1,000 homegrown 
violent extremist cases, approximately 1,000 ISIS-affiliated.
    Ms. Tlaib. So the HVEs, those folks are falling under 
this----
    Mr. McGarrity. International terrorism.
    Ms. Tlaib. Okay. So one of the things that came up--and 
it's a good question to you, Mr. McGarrity, or anybody else 
that would like to answer--do you think we should have a 
domestic terrorism statute?
    Mr. McGarrity. I will say as a former prosecutor, as a 
former investigator, I want every tool in the toolbox and I 
want options.
    Ms. Tlaib. But, Mr. McGarrity----
    Mr. McGarrity. So if I can have more options, I would say I 
want another tool in the toolbox, but I'll defer to the 
Department of Justice----
    Ms. Tlaib. Of course.
    Mr. McGarrity [continuing]. to work with Congress if 
there's a statute needed.
    Ms. Tlaib. So the tools we have, is that enough? I mean, if 
somebody is threatening to kill people based on their faith, to 
kill people based on their beliefs, or just, you know, that 
kind of sort of--you know, I loved how you said any violence is 
a threat to society, right, any form of violence. And I 
appreciate that. But there's not enough right now to give you 
all power?
    So I want to give an example. So I've been in office for 
about six months. And when you get something like this: 
Attention Congresswoman Alexandria Ocasio-Cortez and ragheads 
Rashida Tlaib and Ilhan Omar, I was totally excited and pleased 
when I heard about 49 Muslims were killed and many--many more 
were wounded in New Zealand. This is a great start. Let's hope 
and pray that it continues here in the good old USA. The only 
good Muslim is a dead one.
    How is that enough--not enough--to fall under domestic 
terrorism if they're targeting solely based on my faith and 
others in saying that a good Muslim is a dead one, obviously 
directed to me.
    By the way, they copied, in this threat to my office, they 
copied the U.S. Department of Justice, the President, the 
Department of Homeland Security, and so forth. And we get so 
many of them. And I keep asking, what happens, what happens to 
these individuals?
    Are they--you know, I'm being sincere. I'm not trying to--
I'm really sincere. I'm a mother, so I want to go home to my 
two boys.
    Mr. McGarrity. So first, my empathy.
    I'm in charge of domestic terrorism and international 
terrorism. I don't differentiate either when the threat comes 
in, nor does the FBI. We work them both the same.
    Ms. Tlaib. I appreciate that and I hear that throughout 
your testimony. It's very consistent, Mr. McGarrity. But how 
come we don't have enough tools right now to pull these people 
in? Because this is a form--and you can see there's a pattern.
    Mr. McGarrity. Well, there's two parts to that. So I can 
tell you the FBI, the Joint Terrorism Task Force, we are 
working hard, as was said earlier, we are working hard.
    If there's another statute that you think is needed, come 
talk to the Department of Justice, absolutely. I mean, I think 
they've said that during their last testimony back in May.
    Those type charges, as you're explaining that, I want to 
arrest that person before they do something. I have to, right?
    Ms. Tlaib. Right.
    Mr. McGarrity. What am I going to do? I'm going to look at 
any charge I can do. Probably in that case, if it gets a little 
more specific with the violence and targeted violence, I'm 
going to use 18 U.S.C. 875, interstate communication threat. 
That's what I'm going to do.
    And we do that every day. And we actually do it more. And 
I'm not trying to be argumentative here either. I'm just 
telling you the men and women of the FBI are out here working 
this threat hard. And we arrest more of our subjects on 
domestic terrorism than we do international terrorism. And 
we're doing it as much as we can.
    Ms. Tlaib. We don't have enough resources I think being 
spent on that.
    Mr. McGarrity. It's not an apples-and-oranges.
    Ms. Tlaib. And, you know, Mr. Shivers made a great point, 
because I am for, and I want my colleagues to know, I have my 
coffee hours, I have people protest. I absolutely welcome 
freedom of speech. I welcome anybody that has an opinion, even 
about my faith. But to get to the point where they pass it 
toward a threatening life, I mean, to me that is enough.
    Sometimes I--you know, the protected speech, and that's 
something we have to be very careful and tread very carefully, 
very, very carefully with that.
    But to that point where this person--where I feel like if 
it came from somebody of different--no matter what--as we try 
to proceed we say that's not true, but I feel like if they were 
Muslim or Black that it would be handled differently.
    Even the threat that we had in Florida, they released him 
on a tether. I had to go to Florida the same weekend. I 
couldn't believe they released him on a tether.
    And I've been on the other end, you know, defending many 
people that were wrongfully accused and wanting to--I couldn't 
get them on bail for the smallest incident of, you know, 
attempted assault and so forth, right? Serious offenses, I 
believe.
    But in many ways, these kinds of incidents, when it comes 
to threats of life toward other people based on, you know, 
somebody of Jewish faith, Muslim, being Black in America, this 
anti-Blackness movement that we have, when do we take those so 
seriously as a movement that is obviously pushing violence? I 
mean, when do--I mean, at this point you're letting the person 
out on a tether.
    Mr. McGarrity. I'm not.
    Ms. Tlaib. I know you're not. I know you're not, Mr. 
McGarrity.
    And like what scares me about your, you know, kind of not 
requesting, but you're saying. Do you think we should have a 
domestic terrorism statute? What scares me about that is that 
we're expanding--and I'm sorry, Mr. Chairman--that we're going 
to allow this big balloon of--then we're still going to be 
leaving people out.
    I feel like if they're threatening the life of someone 
else, that alone should be just enough for us to get them on it 
if it's based on--and it's based on hate, because they're 
mentioning a faith, if it's based on color and so forth, sexual 
orientation, that should be enough.
    And, I mean, I commend you all on trying to keep our 
country safe, but I feel like almost like we need to be 
proceeding in a way that we're spending enough resources and 
money with the people that are here now that are threatening 
lives of fellow Americans.
    Mr. Raskin. Thank you.
    Ms. Tlaib. With that, I yield. I'm so sorry. Thank you.
    Mr. Raskin. Thank you, Ms. Tlaib. I was so mesmerized by 
your statement I lost track of time there, so that was my 
fault.
    I come now to Mr. Malinowski. I yield to you for five 
minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    And let me just say, in my congressional district virtually 
every synagogue now has armed security. Every mosque when I go 
for Friday prayers there is state police outside. And 
thankfully law enforcement is doing everything it can. But this 
is an ever-present fear for everybody who is worshipping in New 
Jersey. So these questions about resource allocation are 
absolutely legitimate.
    Let me begin with actually where the chairman started at 
the beginning, the question of cooperation with our allies 
around the world.
    Mr. McGarrity, you talked about this as, yes, a 
transnational threat in the sense that these people are 
communicating online, but isn't it more than that? They're 
traveling. They're meeting each other.
    The shooter in Australia, New Zealand, traveled to Europe 
and met people in similar groups. We have Americans going to 
Ukraine to fight for militias there, coming back with military 
training, joining neo-Nazi groups.
    My question to you, much more specific, if we can drill 
down on this intelligence sharing, is do you feel like you have 
the authorities with respect to sharing intelligence with our 
allies on members of neo-Nazi White supremacist organizations, 
so-called domestic terrorists, that you have if, for example, 
an American citizen is chatting online with al-Qaida in Yemen 
and then getting on a plane to Europe, in terms of contacting 
your counterparts in those law enforcement agencies so they can 
surveil, so they can contribute to our work?
    Mr. McGarrity. If I have an open case on someone, it 
doesn't matter whether it's international terrorism, domestic 
terrorism, or criminal, I can charge----
    Mr. Malinowski. Open case, yes. But you don't necessarily 
have an open case if someone hasn't done anything yet, right?
    Mr. McGarrity. No, no. Of course, we do, yes. So I mean, if 
we have an open case where someone is looking, whether 
international terrorism or domestic terrorism, looking to do 
violence, right, looking to do something.
    So what the Congresswoman said, plus looking to do 
violence, not just hate but targeted hate, you know. And I can 
open a case. I can share that information and work with my 
foreign counterparts, and we do that every day.
    Mr. Malinowski. So despite the fact that we don't designate 
domestic groups--and I'm not suggesting we do--but----
    Mr. McGarrity. I can share that.
    Mr. Malinowski. Are you suggesting that you have 
essentially the same authorities with respect----
    Mr. McGarrity. To share, yes. If we're working an 
investigation and we would do a lead to that legal attache 
office to share with the local counterparts. We may not get the 
same response----
    Mr. Malinowski. Understood.
    Mr. McGarrity [continuing]. to be quite honest, depending 
upon the country.
    Mr. Malinowski. Now, Ms. Neumann, Mr. McGarrity said at one 
point--well, several times--that he is focused on violence, not 
ideology, and I think that's probably the right answer from the 
FBI's point of view.
    But in terms of a national strategy for dealing with this 
threat, if violence is animated by ideology, isn't it important 
that we understand it, that we counter it, and above all that 
nobody in a position of authority legitimize or echo that 
ideology?
    Ms. Neumann. Sir, the studies that have been done by the 
National Institute of Justice, by the Secret Service's NTAC, 
have identified that ideology is certainly one of about five 
components of an individual that's been radicalized, but it is 
not significant enough that you have to know it in order to be 
able to see those behaviors and indicators of somebody on a 
pathway to committing an act of targeted violence. Meaning you 
usually don't even discover what that ideology is or that 
motivation is before you might have clued in that somebody was 
trying to do something. That is specific to----
    Mr. Malinowski. Okay, but there are motivations here.
    Ms. Neumann. Yes.
    Mr. Malinowski. And with regard to the White supremacist 
individuals and groups, that there is a belief that is driving 
those actions, a belief that White people are being replaced, 
that they are being threatened by something.
    And, you know, looking at the recent cases, isn't it fair 
to say that one of the common threads is that these people are 
animated by a conspiracy theory with regard to immigrants to 
America? I mean, they're all talking about it. Is that fair?
    Ms. Neumann. So I think that the current rise of White 
supremacy that we're seeing is abhorrent. I'm very sorry, Ms. 
Tlaib, at what you have endured.
    I believe that the prevention tools that we're trying to 
put in place will help identify those individuals as they're on 
their radicalization process. But that does not take away from 
the fact that we need to have a better understanding of every 
ideology that is posing a threat.
    That said, that's not my office's job. That's where I refer 
to the intelligence community.
    Mr. Malinowski. No, I understand. I'm asking based on your 
expertise.
    I mean, the guy--the shooter in Pittsburgh said explicitly 
he acted because immigrants were invading America, and he 
blamed Jewish Americans for abetting that because of Hebrew 
Immigrant Aid Society. The shooter in Christchurch said 
immigrants were invading Western countries. This is a common 
thread.
    So let me just ask, you know, all of you. From the 
perspective of people who are charged with dealing with this 
threat, is it helpful if in our public discourse in America 
authoritative figures are themselves talking about immigrants 
invading the United States of America, threatening our way of 
life, threatening our culture? Does that not create--contribute 
to an environment in which these people who spout these 
conspiracy theories feel legitimized?
    Mr. Raskin. The gentleman's time is up. But did anyone want 
to take a shot at answering this question?
    Mr. McGarrity?
    Mr. McGarrity. I'll take a shot.
    So it's usually--it's never one sole issue, but there's 
certainly many. And with the internet, it is you can find 
whatever ideology you want to justify your action. I can leave 
it at that.
    And that is just because we're seeing cross-ideologies. In 
other words, there could be someone who is a racially motivated 
violent extremists, but also their ideology might be anti-
immigration.
    And then there's--everyone has got a little bit different--
we're seeing that more and more over the last couple of years 
than we did in years past, which were more stovepipe 
ideologies, if you will, more organized.
    Mr. Malinowski. But you wouldn't want me echoing that 
ideology, would you, from my position as a----
    Mr. Raskin. Ms. Neumann, did you want to answer that 
question?
    Ms. Neumann. What I was going to suggest is the fact that 
we live in a 24/7 news cycle now, the fact that the way that we 
get attention is through retweets and clicks, it leads us to 
more passionate rhetoric.
    And as government officials, our job is not to worry about 
the rhetoric or police the rhetoric. It does make our job 
harder. But the focus is on identifying the individual before 
they commit that act of violence and getting them the help that 
they need and hopefully being able to get them out--hopefully 
to avoid the FBI having to investigate because we've gotten 
them the help they need to be able to see things clearly.
    Mr. Raskin. All right. We very much appreciate all of your 
contributions today. We will continue the dialog and we'll 
continue to work with you.
    Ms. Neumann, Mr. Shivers, Mr. McGarrity, thank you all.
    And we're going to bring up our second panel now. You are 
all dismissed.
    Mr. Raskin. Okay. The subcommittee is called back to order.
    I want to again thank the first panel of witnesses for 
their testimony, and they should be aware there may be 
questions for the hearing record.
    We will now swear in our first--or rather our second panel 
of witnesses. And we're still waiting for Ms. Brooks. Here she 
comes.
    So the second panel is Tony McAleer, who is the co-founder 
of Life After Hate; Lecia Brooks, who is the outreach director 
of the Southern Poverty Law Center--welcome; Brette Steele, the 
director of prevention and national security at the McCain 
Institute for International Leadership at Arizona State 
University; and Todd Bensman, who is the former manager of 
counterterrorism intelligence at the Texas Department of Public 
Safety in the Intelligence and Counterterrorism Division.
    Welcome to you all. And if you would stand and raise your 
right hand, I'll swear you in.
    Do you swear or affirm that the testimony that you're about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Great.
    Let the record show the witnesses have answered in the 
affirmative.
    Thank you. Please be seated.
    Please speak directly into the microphone so we can capture 
all of your remarks. And, without objection, your written 
statements will be made part of the record. And I'm going to 
recognize each of you for five minutes. And, of course there 
will be active questioning by the distinguished members of the 
panel. So you have an opportunity to expand further.
    With that, Mr. McAleer, you are now recognized first, and 
it's good to see you again. And you are recognized for five 
minutes.

     STATEMENT OF TONY McALEER, CO-FOUNDER, LIFE AFTER HATE

    Mr. McAleer. Thank you.
    Chairman Raskin, Ranking Member Roy, members of the 
committee, thank you for the opportunity to appear before you 
today.
    Life After Hate was founded in the summer of 2011 by former 
members of violent White supremacist groups. Our goal is to 
help people caught up in the destructive cycle of hate from 
which we were able to free ourselves.
    Within a year of our founding, a former U.S. Army soldier 
with ties to White supremacists and neo-Nazi groups killed six 
innocent people and injured four others at the Sikh temple in 
Oak Creek in Wisconsin.
    A little less than three years later, in 2015, another 
White supremacist walked into the A.M.E. Church in Charleston, 
South Carolina, with the same goal. He was armed and primed for 
murder and killed nine people on that day.
    That same year, Life After Hate answered a call from a 
troubled veteran. He'd done tours to Iraq and Afghanistan and 
was becoming preoccupied with his local Muslim community.
    Thankfully, he reached out to us. Within 24 hours, two of 
our team members were on a flight to meet with him. They spent 
the next 72 hours together, culminating in a powerful meeting 
with the imam from the local Muslim center.
    To this day, that vet is still engaged with his local 
Muslim community, a community that is safer as a result.
    Our team prides itself on our ability to assess and, where 
necessary, respond quickly to situations where delays can prove 
costly.
    Fast forward five years to August 2017. A White supremacy 
rally draws the who's who of violent extremist groups to 
Charlottesville, Virginia. Attended by the KKK, White 
nationalists, and neo-Nazis, the subsequent violence claimed a 
young woman's life and was broadcast to a national television 
audience.
    We saw it again in October 2018 at the Tree of Life 
Synagogue in Pittsburgh with nine more people being senselessly 
murdered.
    In April of this year, at the Chabad of Poway, California, 
we saw another innocent person murdered by violent White 
supremacists. Thankfully, his gun jammed.
    The expert team at Life After Hate are often referred to as 
``formers,'' meaning former violent extremists. Just as 
important as our unique firsthand experience within violent 
extremist groups is our collective professional training and 
experience. Collectively, the Life After Hate team has worked 
with hundreds of men and women who were able to successfully 
exit the White power movement and build more positive lives.
    Our founding group has undergone extensive personal and 
professional development, and today the Life After Hate team 
has three decades of professional counseling experience between 
them. There is no other organization that's able to perform 
this unique work that Life After Hate does and that has the 
credibility to encourage members of violent extremist groups to 
reach out to them and, just as importantly, to work at scale.
    Life After Hate has built a successful model that combines 
our unique experiences, professional training, and evidence-
based practices. We're now teaching this model.
    This in-person training empowers local professionals--law 
enforcement, mental health, and social services--to recognize 
emerging threats within their community and to effectively 
engage with that person or group.
    The outcome of this first contact from local professionals 
can define the success or failure. So it's vitally important 
that they receive this specialized training.
    Since Charlottesville, Life After Hate has received more 
than 240 requests for help from individuals and families. This 
is almost two-and-a-half times the number of people that we 
helped in the six years prior. In the last three months alone, 
we have opened 45 new cases.
    Life After Hate is committed to continuing our work and to 
sharing the unique understanding and knowledge that we've 
developed in assisting nearly 400 members of White supremacist 
groups to leave that movement.
    I come before you today to urge the government to recognize 
that, if left unchecked, White supremacist ideology inevitably 
expresses itself in murder. This ideology is deadly and fueled 
by social media. The threat to society is growing 
exponentially.
    Thank you.
    Mr. Raskin. Thank you very much.
    Ms. Brooks, you are recognized for five minutes.

STATEMENT OF LECIA BROOKS, OUTREACH DIRECTOR, SOUTHERN POVERTY 
                           LAW CENTER

    Ms. Brooks. Thank You, Chairman Raskin. And thank you, 
Ranking Member Roy and committee members. Thank you for being 
here.
    In our country today there is without question an 
escalating crisis of hate-related violence. There are no longer 
isolated incidents. There are no lone wolves. We are well past 
the point of cautionary tales. Each senseless act after 
senseless act is intertwined and connected by bigotry's sinew, 
woven by callous disregard for human life.
    On the last day of Passover, a 19-year-old nursing student 
in San Diego murdered Lori Kaye inside the Chabad of Poway, 
while injuring three others. In a manifesto posted online, 
easily located by anyone with a passing familiarity with the 
internet, the killer cited as his role models Adolf Hitler and 
two other men, one in Pittsburgh and one in Christchurch, New 
Zealand.
    In March, two mosques in Christchurch were attacked by one 
of these men, killing 51 people, with another 50 injured. One 
of the worshippers, Naeem Rashid, was killed as he charged at 
his assailant.
    Five months prior to Poway, the other man in Pittsburgh 
murdered 11 people at the Tree of Life Synagogue, including 
brothers David and Cecil Rosenthal. The city's top FBI official 
called it the most horrific crime scene he had seen in 22 years 
on the job.
    It is not a coincidence that these atrocities are carried 
out in houses of worship. This is deliberate.
    In June 2015, as was mentioned, a 21-year-old White 
supremacist, who posed in pictures with handguns and the 
Confederate flag, murdered nine worshippers at the historic 
Mother Emanuel African Methodist Episcopal Church during their 
prayer group meeting.
    These killers want to attack people when they are at their 
most vulnerable, practicing their religion, laying their 
burdens before their God.
    These killings are not happening in a vacuum. White 
supremacy and White nationalism are allowed to grow unchecked. 
They remain underestimated by law enforcement and unnamed in 
the media, because we as a society are not able to properly 
identify them or are just too scared to say them aloud.
    The falsehood of White genocide is pervasive. The people 
behind these murders share a common fear of the end of a White 
majority in the U.S., and this dangerous myth has seeped into 
the mainstream, just as easily heard on the evening cable news 
as it is seen on fliers defacing college campuses across the 
country. This radical and racist idea is now the animating 
principle of many of our elected leadership and the guiding 
light of the current administration.
    We've seen this idea become mainstreamed for three reasons.
    One, in the mid-1980's, 77 percent of the U.S. population 
was White. It's roughly now 60 percent. In 30 years, it will be 
under 50 percent. This kind of change creates an existential 
anxiety that, after being fed a steady media diet of xenophobia 
and fear, metastasizes into hate.
    Two, the internet is a highly effective tool for spreading 
propaganda and indoctrination. It would be impossible to 
overstate the sheer volume of misinformation that foments 
extremism available to all of us on our smartphones.
    And three, the President of the United States is actively 
stoking these anxieties, demonizing immigrants, spreading 
conspiracy theories, and lying every day about the cause of 
society's challenges.
    The Southern Poverty Law Center offers the following 
recommendations.
    First, support a bill called the Domestic Terrorism Data 
Act. This bill would help to determine what resources are 
actually being applied to this threat and would improve 
interagency coordination on domestic terrorism.
    Second, support the Khalid Jabara and Heather Heyer Hate 
Crime Reporting Act, which would help to improve the reporting 
of hate crimes and data collection.
    And Congress must also compel tech and social media 
companies to more adequately address hate on their platforms. 
To date, they have demonstrated an insufficient and 
irresponsible lack of understanding of the vast scope of the 
problem. Their inaction suggests that they are either not up to 
the task or lack the will to do so.
    Finally, in order to help communities deal with the impact 
of hate-inspired violence, we urge Congress to fully fund the 
Community Relations Service within the Justice Department. The 
administration's proposed 2020 budget recommends that the 
program be eliminated.
    Thank you for the opportunity to testify before you today. 
The Southern Poverty Law Center remains ready and willing to 
work with you to address White nationalism and White supremacy 
in our country.
    Mr. Raskin. Ms. Brooks, thanks so much for joining us.
    Ms. Steele, you are recognized for five minutes.

STATEMENT OF BRETTE STEELE, DIRECTOR OF PREVENTION AND NATIONAL 
  SECURITY, MCCAIN INSTITUTE FOR INTERNATIONAL LEADERSHIP, ON 
               BEHALF OF ARIZONA STATE UNIVERSITY

    Ms. Steele. Thank you.
    Chairman Raskin, Ranking Member Roy, and members of the 
subcommittee, thank you for inviting me to testify on the 
adequacy of Federal responses to violent White supremacy.
    I am Brette Steele, director of prevention and national 
security at the McCain Institute for International Leadership 
at Arizona State University, and I am honored to appear before 
you today.
    When a professed White supremacist intentionally drove his 
car through a crowd of peaceful protestors in Charlottesville, 
Virginia, Senator John McCain called on all Americans to unite 
against hatred and bigotry. The McCain Institute continues that 
call.
    My testimony today outlines three concrete steps Congress 
can take to address hatred and violence. First, invest in 
prevention. Second, improve hate crime reporting. And third, 
establish parity in domestic terrorism charges.
    First, the United States Homeland Security's Office of 
Targeted Violence and Terrorism Prevention faces dual pressures 
of an expanding mandate and shrinking resources.
    As was acknowledged earlier today, and as George Selim 
testified, its predecessor office once managed a total budget 
of approximately $21 million, including $10 million in grant 
funding. Two years and two reorganizations later, the total 
budget is only $2.6 million, and the Department expanded the 
office's mission to include not only terrorism but school 
shootings and workplace violence, among others. This budget is 
woefully inadequate to meet the expanded mission.
    We position the McCain Institute to fill in gaps in the 
Federal prevention infrastructure. For example, the Federal 
Government launched the Peer-to-Peer: Challenging Extremism 
Program to empower university students to counter extremism and 
hate through the development and deployment of dynamic 
campaigns.
    Since the spring of 2017, the Federal Government has failed 
to fund universities here in the United States to participate 
in this program. The McCain Institute and Arizona State 
University will relaunch this program in January 2020 as the 
Peace Mavericks Peer-to-Peer Challenge.
    The McCain Institute also plans to build a national network 
of practitioners who will share promising practices for 
preventing hate and targeted violence. Through these 
initiatives, the McCain Institute hopes to realize Senator 
McCain's vision and build the capacity of local nonprofits to 
work together to prevent hatred and bigotry.
    Despite the expanding role of civil society in preventing 
hate and terrorism, the Federal Government remains best 
positioned to fund scalable programs and coordinate technical 
assistance.
    Congress should require an interagency strategy and 
implementation plan to prevent all forms of targeted violence, 
including violent White supremacy.
    Congress should also codify an office tasked with, one, 
establishing a grant program for locally led initiatives to 
prevent targeted violence; two, funding independent academic 
evaluation of representative grant projects; and, three, 
expanding technical assistance to local community-led 
initiatives to ensure that programs are evidence-informed and 
protective of privacy and civil liberties.
    These critical functions require line item funding and 
should not be left to the discretion of Department leadership.
    The second point was improving hate crime reporting. Even 
with the expanded investment in targeted violence prevention, 
unaddressed hate will continue to fester into hate crimes. The 
government should, one, encourage hate crime reporting of all 
citizens; two, train local law enforcement; and, three, 
consider mandatory hate crime reporting.
    My third point was creating a domestic terrorism charge. 
Finally, individuals who commit violent acts that violate 
criminal laws with an intent to intimidate or coerce civilian 
populations should qualify for a charge of terrorism, 
regardless of which violent ideology inspires them.
    The American people deserve parity in our rhetoric, our 
resources, and our response, and Congress should take the first 
step toward parity by creating a criminal offense for domestic 
terrorism.
    Congress must invest in scaling up local efforts to prevent 
targeted violence, improve reporting of hate crimes, and 
establish parity in terrorism charges.
    Thank you for affording me the opportunity to discuss these 
important concrete steps that the Federal Government and 
Congress must undertake in order to effectively confront and 
defeat the ongoing threat posed by violent White supremacy. I 
look forward to any questions the subcommittee may have.
    Mr. Raskin. Ms. Steele, thank you very much.
    Mr. Bensman, you're recognized for five minutes.

  STATEMENT OF TODD BENSMAN, FORMER MANAGER, COUNTERTERRORISM 
UNTI, INTELLIGENCE AND COUNTERTERRORISM DIVISION, ON BEHALF OF 
                 THETEXAS DEPARTMENT OF SAFETY

    Mr. Bensman. Chairman Raskin, Ranking Member Roy, and 
subcommittee members, thank you for inviting me to discuss this 
important issue.
    I served in the Texas Department of Public Safety's 
Intelligence and Counterterrorism Division for a decade 
countering domestic extremism. I helped build and manage a 
counterterrorism unit of intelligence analysts for one of the 
country's most muscular fusion centers, the Joint Crime 
Information Center in Austin. We worked as one team with the 
FBI, DHS Intelligence and Analysis officers, and many other 
Federal agencies.
    Texas certainly has its share of racially motivated 
extremists, and we worked hard to learn their criminal 
intentions. Neither FBI nor DPS ever dismissed the domestic 
extremist threat or violent White supremacists, as some have 
suggested, but faced them at every turn during my decade-long 
experience. I personally ensured that analysts were always 
dedicated to this threat.
    We worked hand-in-glove with the FBI's five joint terrorism 
task forces in Texas, each of which maintained its own domestic 
terrorism squad. For an idea of how closely we worked, Texas 
DPS investigators were assigned to all five JTTFs, usually to 
the domestic terrorism squads. Information flowed both ways in 
our system.
    What I can tell you from my experience is that our 
collaborative arrangements remained in place after the 2016 
election. At the line level, we created intelligence, passed 
information to the FBI on their e-Guardian system or in person, 
and filled the requests for their case needs. Good things 
happened as a result.
    For a number of years after 2010, DHS Intelligence and 
Analysis was not as helpful due to an order under Secretary 
Napolitano for the domestic threats group to stand down 
research and analysis. This was due to controversy over a 
leaked 2009 paper that returning military veterans might join 
extremist groups. In recent years, however, DHS I&A did begin 
to provide value.
    The number of racially motivated criminal events is now 
higher than in the past. A pivot is necessary to reverse the 
trend. But any effort must account for the fact that not all 
dangerous domestic extremists are motivated by racist or 
religious animus. In Texas, antigovernment extremists, not 
animated by racism, threaten public safety, too.
    As evidenced by Black nationalist extremists, in one term, 
who have murdered and wounded 25 police officers since 2016, 
including five in one horrific Dallas ambush, it would be a 
mistake not to recognize this fact.
    We certainly worked on cases involving racial motivations, 
though, like the Atomwaffen Division. These are neo-Nazis who 
think violence will ignite a race war to establish national 
socialism in the United States. Some have been implicated in 
murders, building a dirty bomb, and wanting to destroy 
infrastructure, and some of that group's national leaders are 
based in Texas.
    We worked on others not squarely in the White supremacist 
rubric, such as the sovereign citizen movement, which features 
antigovernment, antitax extremists who largely reject 
government authority.
    Antigovernment militias. Texas residents have been linked 
with antiFederalists who carried out the 2014 Bundy Ranch 
standoff in Nevada and the 2016 Malheur National Wildlife 
Refuge standoff in Oregon.
    Anarchist extremists, sometimes known as the Antifa 
movement. From November 2016 through the spring of 2017, masked 
anarchist extremists continually assaulted DPS troopers and 
peaceful demonstrators at the Texas State Capitol, harassed 
businesses in gentrifying neighborhoods, trained in live-fire 
military assault tactics, appear on terror watch lists, and 
some are currently fighting with communist Kurdish groups in 
Iraq.
    As FBI pivots to meet upcycling domestic extremism, it 
should be remembered that a national fusion center 
infrastructure with well-oiled collaborative practices was put 
in place as a result of 9/11.
    I recommend that the homeland security enterprise mobilize 
the Nation's 78 fusion centers to focus them on increased 
support to FBI JTTFs on this problem set.
    Conduct a national risk assessment of bias-motivated 
criminality to build knowledge of the problem set.
    Require police agencies to report bias crimes to the FBI's 
Unified Crime Report system. It's voluntary right now, and 
reporting is not reliable enough to be effective.
    Require military services to collect and share disciplinary 
case information and suspicious behaviors as a potential early 
warning. Service is a common background for certain extremists.
    And with that, I'll yield and be available for questioning.
    Thank you.
    Mr. Raskin. Mr. Bensman, thank you very much for your 
testimony.
    I'm going to go to Mr. Roy first for the first round of 
questions.
    Oh, fair enough. Then I will start them with Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    I want to go to the area of education and schools.
    The FBI found 10.5 percent of all hate crimes in 2017 
occurred at schools or colleges. According to the Chronicle of 
Higher Education's examination of data from the Department of 
Education, hate incident crimes on college campuses increased 
by 25 percent from 2015 to 2016 and incidents of hate are still 
on the rise, as I think you have said.
    Ms. Steele, in your written testimony you mentioned that 
the Department of Education must be a part of the conversation 
to prevent the rise of violent White supremacy. What role 
should the Department of Education play in addressing this 
threat?
    Ms. Steele. Thank you for that question.
    I agree, as I said in my testimony, that the Department of 
Education should absolutely play a role in developing a 
comprehensive strategy as well as implementation plan. They 
played a role on the Countering Violent Extremism Task Force 
that now exists in name only but that it was my pleasure to be 
deputy director of.
    Their role is----
    Ms. Kelly. So they dismantled the task force?
    Ms. Steele. The task force was not dismantled, but it no 
longer has dedicated personnel, it no longer has full-time 
personnel serving on the task force.
    Ms. Kelly. Might as well be dismantled. Okay.
    Ms. Steele. So the role of the Department of Education is 
in advising on policies in providing support to--oftentimes 
teachers, administrators are asking for guidance on what to do. 
They issued guidance in the face of bullying incidents on 
campus, for example.
    And so to provide that support to the educators around this 
country who are looking for guidance on how to respond to this 
growing threat, not just on college campuses, but on high 
school campuses as well.
    Ms. Kelly. Sounds like more needs to be done in that arena.
    You also wrote that the Department of Health and Human 
Services should be working to counter violent White supremacy. 
Again, what role should HHS play in addressing this threat? To 
your knowledge, what are they doing?
    Ms. Steele. Yes. So the Department of Health and Human 
Services was also a member of the Countering Violent Extremism 
Task Force. Some of the most helpful programs out of the 
Department of Health and Human Services come from the Center 
for Disease Control, which takes a public health approach to 
violence prevention. And so their literature has been very 
helpful in informing. We see common risk factors across 
targeted violence, violent White supremacy, and other forms of 
violence that the Center for Disease Control already works to 
prevent. So guidance on public health approaches to violence 
prevention.
    Ms. Kelly. And let's move to the Department of Labor. What 
role should they play, and what role are they playing?
    Ms. Steele. So the Department of Labor also sat on the 
Countering Violent Extremism Task Force. You're seeing a theme 
here.
    Ms. Kelly. Yes, I am.
    Ms. Steele. And their role historically, for example, when 
there was employment programs, summer internship programs that 
the Department of Labor was rolling out that could be part of a 
holistic wraparound service approach to prevention, I made sure 
that United States Attorneys were aware of those programs in 
their districts that again could be leveraged for preventative 
approaches to violence generally.
    Ms. Kelly. So it doesn't sound like anyone is doing much 
now, from what you're reporting. I know you all sat on 
something, but that's not functioning anymore.
    Ms. Steele. I left the Department in January and left the 
Countering Violent Extremism Task Force in 2017, so I can't 
speak to current affairs.
    Ms. Kelly. So what should Congress do to make sure the 
Departments of Education and Labor and HHS are doing their 
part?
    Ms. Steele. I think we need to start with a strategy and an 
implementation plan that clearly spells out the roles for each 
department and agency. We also need to be mindful of not 
creating unfunded mandates, that any responsibilities assigned 
to these departments and agencies also come with associated 
funding so that they can be faithfully executed.
    Ms. Kelly. So just ending, you do believe that there's a 
role for agencies outside of law enforcement, that it really, 
as they say, is going to take a village?
    Ms. Steele. Absolutely. I think it's essential.
    Ms. Kelly. Thank you. I yield back.
    Mr. Raskin. Thank you very much.
    I yield to myself for five minutes.
    Mr. McAleer, let me ask you. We spend billions of dollars 
in counterterror operations around the world, military and 
intelligence operations. If you had a billion dollars to try to 
deal with the threat of terror in America, violent White 
supremacy, domestic terror, what would you do with it?
    Mr. McAleer. That's a great question.
    I think, you know, we have to recognize that this is a 
whole-of-society problem that requires a whole-of-society 
solution. And I think I would be begin to empower local 
communities that are trying to grapple with this problem. That 
includes helping law enforcement, mental health, social 
services, and those type of things to understand and recognize 
what the problem is and to be able to interface with it better, 
primarily in the precriminal space.
    I think that's where the real work of prevention is done. 
That's where Life After Hate works. But I know that there is a 
large number of communities that just lack the resources to be 
able to respond in an effective way.
    Mr. Raskin. So would the investment be generally of the 
kinds of things that bolster communities, like job training and 
education and after-school work and mental health counseling 
and helping young people who are alienated or marginal, or 
would it explicitly try to address the ideologies of the group?
    I mean, are we learning from you that the ideology is 
really secondary to just sort of the sense of social isolation 
and marginalization that certain young people are experiencing 
and therefore makes them vulnerable and susceptible to these 
kind of groups?
    Mr. McAleer. In Life After Hate's experience, when we peel 
away the labels, we find vulnerable human beings. And they are 
human beings. And when we're talking about, you know, hate 
crimes that are happening in schools, we're talking about 
children, too. And I think we just--we really need to take a 
comprehensive approach to address those things in an effective 
way.
    Mr. Raskin. And can you give us one good example of 
somebody who actually was in one of the groups, was committed 
to violent White supremacy, hurt people, but got out?
    And, I mean, in other words, is there some reason to hope 
that the people who are in it can come through it?
    Mr. McAleer. Absolutely. And I would use myself as that 
example. I spent 15 years in the White supremacist movement. I 
was a skinhead. I was a neo-Nazi. I eventually moved to a suit 
and tie and was involved in the White Aryan Resistance.
    And I committed a lot of violence, a lot of violence that I 
have a lot of shame for, a lot of healthy shame. And part of 
this work that I do is the accountability, the holding myself 
accountable for the horrible deeds that I've done.
    But it was other people that reached out that gave me a way 
back in. And I think we have to keep the door open. As much as 
it's important to call people out when they're doing this 
stuff, we also must be in a position to call people in.
    Mr. Raskin. So the position you take now is that it's 
important to have muscular, strong law enforcement efforts to 
counter the violence that is happening at the same time that 
you try to remember the humanity of the people who are in 
there, that they were vulnerable, impressionable young people 
who got pulled into it, and to try to find a pathway out to 
them?
    Mr. McAleer. Yes. We're not saying we are the only solution 
to this. We are part of a much greater holistic solution.
    And I think compassion is an extremely powerful tool, but 
it has to be married with healthy boundaries and consequences, 
and that's kind of the role of law enforcement. We have to have 
both together, otherwise it's an invitation for further abuse.
    Mr. Raskin. Okay. Ms. Brooks, then let me turn to you and 
ask the same question. I mean, if you had, you know, a big sum 
of money to try to spend to really make progress on this so we 
don't see any repeat of Tree of Life or the Mother Emanuel 
Church or any of these episodes of explosions of gun violence 
with a White supremacist motivation behind it, what would you 
do?
    Ms. Brooks. Thank you.
    I think that I agree with my fellow panelists, is that we 
need wraparound services. And I guess I would point out that it 
is in some cases, in some instances, vulnerable populations, 
people who are living on the margins. But I'd also point out 
that, especially as it relates to White nationalists, who call 
themselves alt-right or whatever on college campuses, these are 
well-to-do young men in their thirties. So some people are 
purposely joining that movement.
    And so I'm just reminded of the conversation that you all 
were having in the earlier panel, and I was just struck by 
people's hesitancy to talk about whiteness and race. And if we 
don't have those kinds of conversations, then we won't address 
the problem fully.
    The fact of the matter is, is that what animates it most, 
this fear of a White genocide, this lie of a White genocide, is 
the demographic shifts.
    And so I have worked with, you know, young White kids who 
have no one to talk to, you know, about what it means to be 
White and what it means to be becoming a minority in their own 
country.
    And this is a real issue. But if we're not talking about 
race explicitly, then we can't get to it, right?
    So I think that it's very important for us to acknowledge 
that education around diversity, equity, and inclusion, 
including kind of a very intentional race equity lens, that 
this happens at the elementary school level, this happens K 
through 12.
    I have had occasion to work with many college-age students 
who are literally lost on college campuses. And this is why you 
see a lot of pushback and alt-right presence on college 
campuses, because these young White men feel like they're not a 
part of it, you know, they're not a part of the diversity on 
campus and then they break up into their own little group.
    And these things are real. So if we don't address them in a 
more holistic fashion, we'll just continue down this path.
    Mr. Raskin. And I want to thank you for making that very 
powerful point. It's important that we wrestle with that 
serious issue, but also, as you observe, take care to notice 
that there are real racist movements around the world, 
especially in Europe where they have political presence and 
influence.
    And so, you know, maybe we can prevent some young people 
from losing their lives in this way. But we also have to 
confront it at the level of politics and ideology.
    Ms. Brooks. If I could just add, I would add literacy 
around kind of the use of the internet, and we just need to 
educate young people from an early age on how to use that as a 
tool.
    Mr. Raskin. Okay. Very good.
    I am coming to Ms. Pressley for five minutes.
    Ms. Pressley. Thank you, Mr. Chairman.
    And thank you to all of our witnesses. You reiterate and 
remind us that hate begets hate and violence begets violence, 
and there's just far too much of it in the world. And the more 
silent we are about it, the more complicit we are in it. And so 
we can't work on it if we can't talk about it. So thank you all 
for being here.
    And thank you, Mr. Chairman, for convening this hearing on 
this important subject, to discuss the unique perspectives on 
the growing dangers of White terrorism.
    Ms. Brooks, according to your organization's website, there 
are more than 1,000 terrorist groups operating across the 
United States. I represent the Massachusetts Seventh. In the 
Commonwealth of Massachusetts in 2018, there were 14 terrorist 
groups.
    Can you just speak to, you know, how these trends have 
changed in recent years and why?
    Ms. Brooks. Thank you, Congresswoman.
    The trends have been going up since the year 2000. We've 
marked about a 52 percent increase in the number of active hate 
groups in the United States since 2000 to 2018. Over the last 
couple of years, I would say it's been about a five to six 
percent increase.
    I think it's important for us that are convened today to 
note that there has been a 50 percent increase in the number of 
White nationalist hate groups. And it's important to note that, 
as someone mentioned earlier, we note an increase in hate 
groups, but we also note an increase in activity by 
individuals.
    So, again, going back to the internet and how these 
messages of hate are spread, they're not solely confined to 
just groups. But I would say in answer to your question, that 
it's been on the increase since 2014 at least.
    Ms. Pressley. Okay. All right.
    And then just picking up on Congresswoman Kelly's line of 
questioning around schools. Ms. Brooks, your organization 
recently released a report entitled ``Hate at School,'' which 
exposed the surge of racist, xenophobic, anti-Semitic, and 
Islamophobic incidents taking place across our Nation's schools 
following the 2016 election.
    Mr. Chairman, I would actually like to request unanimous 
consent to have this report included in the record.
    Mr. Raskin. Without objection.
    Ms. Pressley. The report links this phenomenon to a quote/
unquote, Trump effect. Can you explain this Trump effect and 
the impact it has had both on children and educators at schools 
across our country?
    Ms. Brooks. Thank you so much.
    As we all know, the 2016 Presidential campaign was ugly. It 
was just ugly. The rhetoric that went out from then-candidate 
Trump was echoed in our Nation's schools. And that's just a 
fact. Our research just bears it out.
    So on the Presidential campaign trail, when things are said 
about immigrants--and I believe candidate--I know candidate 
Trump entered the campaign vilifying immigrants, and Mexicans 
in particular. And so the language and the rhetoric that's used 
in the public square was then echoed on school campuses.
    Teachers reported to us, and we must have researched about 
10,000 teachers at least that reported to us, without 
attribution to any candidate, that they had never seen anything 
like it before. So there's an increase in anti-immigrant 
rhetoric, there's an increase anti-Muslim rhetoric, there's an 
increase in anti-LGBT.
    And as my colleague said, schools--and I'm a former fifth 
grade teacher--schools have done a lot to push back against 
bullying and harassment on school campuses, but it just all 
flipped during the Presidential campaign. And teachers, as I 
say, didn't know how to handle it because they didn't want to 
offend the parents.
    So we see this trend kind of--well, continuing. The 
Southern Poverty Law Center, through our Teaching Tolerance 
program, sent out resources that would help teachers address 
hate and bias on campus. So we always want to be able to help 
educate teachers and make a safe place, create a safe place for 
students.
    Ms. Pressley. Thank you. Thank you for that research and 
also for that resource.
    And just before my time ends, Ms. Brooks, in your opinion, 
how might designations like Black identity extremism reinforce 
racial stereotypes and perpetuate racial tensions?
    Ms. Brooks. A few months into the President's 
administration then Attorney General Sessions--who, as you 
know, was the Senator in Alabama--identifies as the biggest 
threat to our country domestically was Black identity 
extremists.
    The research at the Southern Poverty Law Center, ADL, any 
other group that maintains records and keeps up with and tracks 
and monitors hate and extremism, will tell you that that's just 
not true. There is no organized threat from Black extremists or 
Black identity groups or anything of the sort.
    The reference that the panelist made to the murders in 
Texas, the Southern Poverty Law Center tags that ideology to 
sovereign citizens. It's interesting that when a Black person 
is the perpetrator, then they automatically become a Black 
identity extremist and not allowed to hold a sovereign citizen 
identity as if it were a White person.
    So a White person that is tagged with sovereign citizen 
ideology gets to remain just that. They don't then become a 
White supremacist. Do you know what I mean?
    Ms. Pressley. I do.
    Ms. Brooks. So I think it's unfortunate. We've tried to 
push back against it. The Southern Poverty Law Center two years 
ago on our website wanted to be clear that the Black Lives 
Matter movement was not--we did not identify Black Lives Matter 
as a hate group, and we were not--our information about Black 
extremist groups--because we do identify Black nationalists 
groups, we do--that they were not to be confused or conflated 
with the FBI's list at all.
    Ms. Pressley. Thank you for clarifying.
    Mr. Raskin. Thank you so much, Ms. Pressley.
    And, Ms. Tlaib, you're recognized for five minutes.
    Ms. Tlaib. Thank you, Mr. Chairman.
    So, Ms. Brooks, thank you.
    And thank you all so much for being here.
    I got a little text message from my staff: ``Ms. Brooks 
speaks to my soul.'' So it's just appreciated what you were 
talking about in regards--probably some people know who that 
was.
    The one thing that I heard from the previous panel, Ms. 
Brooks, is they talked about--one of my colleagues brought up 
the whole ideology. And then someone from Homeland Security 
said, well, there's five components to so-called terrorism and 
ideology is only one part of that.
    Do you know what the other four--like how do they come and 
decide, okay, this is a group that we need to maybe put on a 
list or target or so forth?
    Ms. Brooks. I have no idea what they do. I can tell you 
what we do.
    Ideology drives or animates participation in the movement, 
right? People are not--they don't--they don't align themselves 
with the alt-right movement, say, for example, unless they 
adopt a White nationalist or White supremacist ideology.
    So to adopt that ideology kind of brings you down a rabbit 
hole of extremism that, as Tony mentioned, can lead to real 
violence.
    And I want to point out that I just think it's important to 
speak to the truth of what happens to individuals, because if 
we don't they will end up creating--acting out violent racial--
they'll act out, you know, violently. Sorry.
    I just feel so strongly about it. You can't erase the 
ideology from who these folks are. They wouldn't be involved in 
any of this.
    I mean, it's easy for us to assign ideology across the 
groups. And I'll just bring it up again in terms of people of 
color. But when it comes to saying that some young White men 
adopt a White supremacist ideology, we seem to want to stop.
    And I don't do it to attack White men. I do it because I 
want to help them. This is what they are believing, this is 
what they are fed, and this is what is animating their actions. 
And if we don't recognize it, we cannot help them.
    Ms. Tlaib. Thank you so much.
    And, Mr. McAleer, I really appreciate your courage in 
coming forward. And just a tremendous amount of respect for you 
to do that.
    And I love what you talked about regarding compassion. You 
talk about leading with compassion. Even as a Member of 
Congress, always approaching people, many--I mean, I want to 
say I think close to 60 percent of Americans have never met a 
person of Muslim faith before. And so just kind of coming from 
that school of thought and, again, leading with compassion.
    I'm just curious--and you don't have to share, you know, 
this is a public setting--but when was that moment, when was 
the moment where you said, ``I have to change''?
    Mr. McAleer. It was a moment that started a process. So it 
wasn't a moment where it all happened. But it started in the 
delivery room with the birth of my daughter. And I had a son 15 
months later. And at that point in my life, at that point in 
the movement, I was completely disconnected from who I came 
into the world to be as little Tony, right? And I had become 
numbed.
    And with children, it is--they're infectious. You know, 
they're----
    Ms. Tlaib. You become so much more focused.
    Mr. McAleer. Yes. But it's also safe to love a child, 
right?
    Ms. Tlaib. That's right.
    Mr. McAleer. The reason we shut down and the reason, you 
know, we get disconnected is because we learn somewhere along 
our lives that it's not safe to be open. And they provided a 
place, a safe place for me to be able to thaw and allow my 
heart--to become connected to my heart again.
    Ms. Tlaib. That's very beautiful. Thank you so much for 
providing that.
    And, Mr. Bensman, I'm so glad you mentioned this in your 
testimony about there's these groups that are just 
antigovernment. You know, I see that as antidemocracy, you 
know, trying to push forward and not wanting everyone to be 
able to participate.
    And one of the things that I'm worried about, though, is 
when you do that there are people that are expressing their 
First Amendment right of freedom of speech and wanting to, 
``Look, I don't like this form of government.''
    But when do you decide when it turns into more of a--does 
it turn into some sort of type of like hate versus--because I 
know people that are like, ``I don't want to vote, I don't want 
to participate, I think this whole system is, whatever, broken, 
whatever.'' I mean, I've participated in actual college campus, 
like, protests, where it's like, ``Not until we're all truly 
free will I''--you know.
    When do you decide when antigovernment kind of groups are 
past that line and lead into some sort of violent group? Just 
curious.
    Mr. Bensman. Sure. Well, to start with, just coming from a 
purely law enforcement perspective, one of the other earlier 
panelists made this point, that protected speech includes hate 
speech. So speech--and speech that references a desire to 
change the government. So hate speech is protected speech.
    But from a law enforcement perspective, we are governed by 
Federal rules and our own internal policy, 28 CFR Part 23. I 
don't know if you've heard that. But that restricts us from 
monitoring groups without criminal predicate. So we are very 
limited in what we can do in terms of even opening up a 
Facebook page, okay?
    So what we look for from law enforcement is some sort of 
predicate that looks like--that would rise to reasonable 
suspicion that a crime is about to occur or has occurred. And 
at that point, we can get involved. So it has to cross a line 
of criminality.
    So if we're looking at somebody who is saying something 
like--I think you were reading from your--an email. I didn't 
hear the predicate in that. If the email would have said, ``I 
am going to kill you tomorrow at noon,'' then of course 
everybody would be--you know, you'd have SWAT teams on that 
guy's house. It would be something like that. But if they just 
sort of generally say that----
    Ms. Tlaib. Like ``I want New Zealand to happen here.''
    Mr. Bensman. Okay. Well, you know, that is expressing a 
general aspiration----
    Ms. Tlaib. To kill Muslims.
    Mr. Bensman. Right. But what law enforcement is looking for 
in that circumstance is, ``I'm going to do it and everybody 
else should do it'' on this such-and-such a date.
    Now, we saw that sort of thing ahead of the Garland terror 
attack a few years ago when the two guys drove from Phoenix to 
Garland, Texas, to attack the draw the Muhammad cartoon. There 
were a lot of social media postings that were very specific 
about murder, and it was inciting violence. And you can't 
incite violence. That would cross the predicate line there.
    So that's kind of--I don't know if that gets at the answer, 
but that's how we look at it. You have to cross that line.
    Mr. Raskin. Great. The gentlelady's time has expired. Yield 
back.
    And thank you for that explication of the constitutional 
standard, too, which is the Brandenburg standard of specific 
incitement to imminent lawless action. And I think that's what 
law enforcement does.
    Mr. Roy, I will recognize you for the final five minutes. 
Thank you for your patience.
    Mr. Roy. Thank you, Mr. Chairman. I appreciate it, and 
appreciate the questions here today.
    And thank you all for your patience. It's been a long 
afternoon with two panels and for your commitment to public 
service and in whatever walk of life you each are in. So I 
appreciate it.
    A couple of quick questions. Mr. Bensman, you conveyed some 
information about some of the--and I alluded to it in my 
opening statement earlier on about some of the cases the FBI 
has dealt with in Texas. And I think you shared some 
information. I just wanted to see if you could expand on that 
just a little bit because one of the things that I want to make 
clear today is--and I think everybody is in agreement here, 
right? But I just want to make sure it's clear that there are 
issues here we're trying to address and figure out. And I think 
everybody has been consistent in that point, in trying to 
figure out how we can pivot from a focus on one particular kind 
of terrorist threat and then, you know, use resources, to 
allocate them and deal with the different threats, and all of 
that's ongoing, but that our law enforcement communities are 
working within the resources they have to go stop a lot of bad 
actors, right? And can you just go into just maybe 30 seconds 
or a minute and kind of summarize just a few of the ones that I 
know you're aware of in Texas.
    Mr. Bensman. Sure. There's one that just wrapped up 
recently. That's the case, a former Texas State University 
student. I think you mentioned that earlier. This is a young 
man who made online postings, messaging that he wanted to 
commit mass murder and kill minorities. That individual also 
had some other crime problems, so they used that to get him off 
the street right away. But he has pled guilty. That's Benjamin 
Bogard of New Braunfels.
    Then we had a student, a DACA recipient, who made threats 
against--to kill ICE agents. He is now deported into Mexico. He 
chose deportation rather than standing trial.
    We've had a number of I would say sovereign citizen cases. 
We've got sovereigns all over Texas of different varieties. Two 
members that are living in a compound in central Texas. I think 
that case may be going on, so I can't talk too much about it. 
But some of it broke into the public record, and there are 
police reports that they committed armed robbery of a jewelry 
store in furtherance of their ideology and their enterprise.
    Mr. Roy. Let me ask you one question: In your experience as 
a law enforcement--in law enforcement, resources are always an 
issue, right? I mean, in terms of trying to figure out how we 
go after bad actors. In other words, there's more than enough 
to go around, right? And we're just constantly trying to go 
figure out how to stop bad actors, you know, ahead of time and/
or deal with a crime after the crime has been committed.
    So, really, this is extraordinarily a resource allocation 
between Federal, state, and local. Is that a fair statement?
    Mr. Bensman. Absolutely.
    Mr. Roy. And so, without objection, I'm going to introduce 
into the record a detailed description of the various cases 
that Mr. Bensman alluded to.
    Mr. Raskin. Without objection.
    Mr. Roy. The one thing I'll end with, and I want to make 
this a positive, not a negative, because we're wrapping up the 
day, and it's been a long day, and I appreciate everybody's 
time, but I do think it's important, is something, Ms. Brooks, 
you alluded to that caught my ear, and that is the question 
about demonizing immigrants, for example. Because this gets to 
the heart of, for me, when you get into hate speech and when 
you get into what people are kind of, you know, impugning 
somebody's motives about what they may be saying or not saying.
    Without getting into the specifics of what you allege the 
President did something along those lines and without getting 
into that game or identifying specific, you know, tweets or 
statements or anything like that, I've been a fairly outspoken 
critic of our current immigration policy and border policy.
    And I think my question is, is, what is the line, right? 
Because, you know, when someone says that we're, you know, 
demonizing immigrants is that, you know, too often I find that 
people are saying you're demonizing immigrants simply because 
you believe the border laws ought to be enforced, right, that 
you believe that that's actually better for migrants seeking to 
come here so they're not being held in stash houses in Houston, 
so they're not being abused by cartels, there's not little 
girls getting abused on the journey through Mexico, so cartels 
aren't making $2 billion dollars like they did in 2018, and 
that if you're standing up and saying, ``I think the border 
ought to be secure, it's better for our country, it's better 
for migrants,'' that somehow that's demonizing immigrants, 
right?
    And then how does that then translate to what we're talking 
about in terms of hate, which I think gets to the heart of, you 
know, from a civil libertarian standpoint and not wanting to 
have the government, you know, policing every statement you 
make? So my question is, is what would constitute demonizing 
immigrants relative to saying, I just want a secure border?
    Ms. Brooks. That's fine. I believe that we need to have a 
conversation about comprehensive immigration reform. I don't 
want people, you know, sleeping under a bridge on the border 
either. I think when you call people subhuman, when you refer--
when you lose your humanity for a person, when you start 
identifying them as just--as drug dealers, when you don't see 
people as people or just calling them out of their name, that's 
just not necessary.
    It's not necessary at all to have--to engage in 
intellectual discourse about immigration in our country. We 
don't have to resort to name calling. And it has an effect, 
sir, it does, because, as I mentioned, children will pick that 
up, and then the next thing you know there's bullying that's 
happening on school campuses. And hate incidents do lead to 
hate crimes, they just do.
    Mr. Roy. Well, my only point--and I'm over my five minutes, 
and I do want to wrap it up. I would say this, is that it is 
also true that the Southern Poverty Law Center has suggested 
that CIS, which Mr. Bensman works, is a hate group. And I know 
Mark and I know Todd and I know some of the folks there who are 
trying to fight for a secure border.
    I would suggest to you that that designation heightens the 
tension quite a bit about groups that are trying to I think 
work hard to come to a consensus on what a strong secure border 
is.
    I yield back.
    Ms. Brooks. Understood. We can all do better. Thank you, 
sir.
    Mr. Raskin. Well, I want to thank all four of you for your 
superb presentations and for a very civil, productive, and 
enlightening exchange of views and ideas today. And we will 
collect everything that we did in this set of hearings and move 
forward in the legislative process with it. And so I want to 
thank all of you guys for being part of this.
    And, Mr. Roy, I want to thank you for holding up that side 
of the dais and Ms. Tlaib for joining us, even though you're 
just a member of the general Oversight Committee, being part of 
the subcommittee today. Thank you all for coming.
    The meeting is adjourned.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
